<html>
<title> - UKRAINE SUPPORT ACT; URGING THE GOVERNMENT OF BURMA TO END THE PERSECUTION OF THE ROHINGYA PEOPLE AND RESPECT INTERNATIONALLY RECOGNIZED HUMAN RIGHTS FOR ALL ETHNIC AND RELIGIOUS MINORITY GROUPS WITHIN BURMA; AND AFFIRMING THE IMPORTANCE OF THE TAIWAN RELATIONS ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






    UKRAINE SUPPORT ACT; URGING THE GOVERNMENT OF BURMA TO END THE 
    PERSECUTION OF THE ROHINGYA PEOPLE AND RESPECT INTERNATIONALLY 
 RECOGNIZED HUMAN RIGHTS FOR ALL ETHNIC AND RELIGIOUS MINORITY GROUPS 
 WITHIN BURMA; AND AFFIRMING THE IMPORTANCE OF THE TAIWAN RELATIONS ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                 H.R. 4278, H. Res. 418 and H. Res. 494

                               __________

                             MARCH 25, 2014

                               __________

                           Serial No. 113-152

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-333PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4278, To support the independence, sovereignty, and 
  territorial integrity of Ukraine, and for other purposes.......     2
  Manager's amendment to H.R. 4278 (Royce 96) offered by the 
    Honorable Edward R. Royce, a Representative in Congress from 
    the State of California, and chairman, Committee on Foreign 
    Affairs......................................................    59
  En bloc amendments to H.R. 4278 offered by:
      The Honorable Alan Grayson (Grayson 232), a Representative 
        in Congress from the State of Florida....................    79
      The Honorable William Keating (Keating 27), a 
        Representative in Congress from the Commonwealth of 
        Massachusetts............................................    79
      The Honorable William Keating (Keating 28).................    80
      The Honorable Alan S. Lowenthal (Lowenthal 23), a 
        Representative in Congress from the State of California..    81
      The Honorable Luke Messer (Messer 120), a Representative in 
        Congress from the State of Indiana.......................    82
  Amendments to H.R. 4278 offered by:
      The Honorable Gerald E. Connolly (Connolly 98), a 
        Representative in Congress from the Commonwealth of 
        Virginia.................................................    83
      The Honorable Jeff Duncan (Duncan 46), a Representative in 
        Congress from the State of South Carolina................    86
      The Honorable Jeff Duncan (Duncan 45)......................    93
      The Honorable Joaquin Castro (Castro 23), a Representative 
        in Congress from the State of Texas......................    97
      The Honorable Ted Poe (Poe 74), a Representative in 
        Congress from the State of Texas.........................    99
      The Honorable Steve Stockman (Stockman 14), a 
        Representative in Congress from the State of Texas.......   101
      The Honorable Tulsi Gabbard (Gabbard 1), a Representative 
        in Congress from the State of Hawaii.....................   102
      The Honorable Matt Salmon (Salmon 40), a Representative in 
        Congress from the State of Arizona.......................   103
          Second-degree amendment to Salmon 40 offered by the 
            Honorable Edward R. Royce............................   107
      The Honorable William Keating (Keating 26).................   111
      The Honorable Jeff Duncan (Duncan 46 revised)..............   115
      The Honorable Gregory W. Meeks (Meeks 26), a Representative 
        in Congress from the State of New York...................   117
H. Res. 418, Urging the Government of Burma to end the 
  persecution of the Rohingya people and respect internationally 
  recognized human rights for all ethnic and religious minority 
  groups within Burma............................................   123
  Amendment in the nature of a substitute to H. Res. 418 offered 
    by the Honorable Edward R. Royce, the Honorable Eliot L. 
    Engel, a Representative in Congress from the State of New 
    York, the Honorable Steve Chabot, a Representative in 
    Congress from the State of Ohio, and the Honorable Tulsi 
    Gabbard (Royce 97)...........................................   127
H. Res. 494, Affirming the importance of the Taiwan Relations Act   132
  Amendment in the nature of a substitute to H. Res. 494 offered 
    by the Honorable Edward R. Royce (Royce 94)..................   135

                                APPENDIX

Markup notice....................................................   144
Markup minutes...................................................   145
Markup summary...................................................   147
The Honorable Eliot L. Engel: Material submitted for the record..   148
 
    UKRAINE SUPPORT ACT; URGING THE GOVERNMENT OF BURMA TO END THE 
    PERSECUTION OF THE ROHINGYA PEOPLE AND RESPECT INTERNATIONALLY 
 RECOGNIZED HUMAN RIGHTS FOR ALL ETHNIC AND RELIGIOUS MINORITY GROUPS 
 WITHIN BURMA; AND AFFIRMING THE IMPORTANCE OF THE TAIWAN RELATIONS ACT

                              ----------                              


                        TUESDAY, MARCH 25, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order. Pursuant 
to notice we meet today to mark up three bipartisan measures.
    Without objection, all members may have 5 days to submit 
statements for the record and any extraneous material on any of 
today's items, and we will now call up the Ukraine Support Act, 
H.R. 4278.
    Without objection, the bill is considered read and open for 
amendment at any point.
    [The information referred to follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. And after my brief remarks I will recognize 
our ranking member, Mr. Eliot Engel from New York, and then any 
other members seeking recognition to speak on the bill. We will 
then proceed to consideration of a manager's amendment, then to 
an en bloc package of bipartisan amendments, and then to any 
free standing amendments that may remain before the committee.
    Now, let me make the observation that Russia's armed 
intervention in Ukraine and its illegal annexation of Crimea 
have created an international crisis and the danger, obviously, 
is far from over. President Putin has deployed Russian forces 
on Ukraine's borders and may yet attempt to carve off 
additional pieces of eastern or southern Ukraine. If we wish to 
prevent him from further aggression then the United States and 
our allies must take immediate action to strengthen Ukraine's 
sovereignty, to strengthen their independence, to target 
responsible Russian officials and others in order to give the 
Russians second thoughts before they take any additional 
action.
    This bill provides much needed assistance to Ukraine's 
struggling democracy which will be tested in the Presidential 
election that is scheduled there for May 25th. This includes 
security assistance. It also supports the reform of its police 
force and the removal of those responsible for the violence 
against peaceful protesters. In addition, it promotes economic 
reform, anti-corruption efforts, the recovery of assets stolen 
by former Ukrainian officials and other urgently needed 
measures.
    This legislation enhances the availability of accurate news 
and information needed to counter the propaganda sent in by 
Moscow, and that propaganda from Moscow is being used right now 
to create confusion and fear and unrest in the country. And so 
this legislation will authorize increased funding for Radio 
Free Europe, Radio Liberty and the Voice of America, and it 
will enable these institutions to expand their broadcasting in 
Russia. There will be additional reporters, additional 
stringers so that in the Russian language, Ukrainian language, 
Tatar language--the languages spoken in Ukraine and this part 
of the world--there will be the ability for people to hear in 
real time what is really going on instead of just what is on 
Russian television.
    If we are to help Ukraine break free of Russia's grip then 
we must help it escape from Moscow's control over its energy 
supply. The U.S. has a readily available tool to help 
accomplish this goal, which is to remove existing restrictions 
on our export of oil and natural gas into Ukraine and into 
Eastern Europe. This will not only boost the U.S. economy and 
create American jobs but also enhance our national security by 
undermining Russia's ability to use its energy exports to 
blackmail other countries, including our allies in Europe. 
Tomorrow the committee will hold a hearing on the very 
important and timely subject of the geopolitical potential of 
U.S. energy exports which is of direct relevance to the 
situation we face in Ukraine.
    Let me also make the observation that our Chairman of the 
Joint Chiefs recently told a committee in the House an energy-
independent U.S. and net exporter of energy as a nation has the 
potential to change the security environment around the world, 
notably, in Europe and in the Middle East.
    And so as we look at our strategies for the future, I think 
we have got to pay more and particular attention to energy as 
an instrument of national power. The reason we are concerned 
about this is this is 70 percent--70 percent of the exports out 
of Russia today.
    It is 52 percent of the entire budget for the Russian 
military and Russian Government that is coming because of the 
ability of Russia to have a monopoly on Ukraine--a monopoly, 
frankly, that Russia has used to its advantage in the past to 
undermine Ukraine.
    This bill ramps up pressure on Putin and his accomplices 
who have played key roles in Russia's aggression. By 
specifically targeting them we can demonstrate that they will 
pay a heavy personal price for the confrontation they have 
engineered. The sanctions are aimed not only at the government 
officials but also at those who hold no official position but 
nevertheless wield great influence over government policy, 
including the so-called oligarchs.
    I am pleased to have worked closely with Ranking Member 
Engel on this bipartisan bill. I believe it will send a clear 
message of American resolve. I think it will be heard in Kiev. 
I think it will be heard in Moscow and, frankly, throughout the 
region.
    And with that, let me turn to our ranking member, Mr. Engel 
of New York.
    Mr. Engel. Mr. Chairman, thank you very much for holding 
this markup of the Ukraine Support Act. I am very pleased to be 
the lead Democratic co-sponsor of this legislation and I want 
to commend you for once again working with us in a bipartisan 
way.
    I say this, and I cannot say this too often, that I wish 
the rest of the Congress would take its cue from this committee 
and to show that we really can work in a bipartisan way to do 
what is best for our country.
    President Putin's invasion of Crimea is a blatant violation 
of international law and also of Russia's commitments to its 
neighbor. The phony referendum he organized at the barrel of a 
gun has culminated in the first outright annexation of 
territory in Europe since the end of World War II and now he is 
massing troops on Ukraine's border, greatly increasing the risk 
of further violence and conflict in Ukraine and the wider 
region.
    The United States must take a strong stand against this 
naked aggression. H.R. 4278 reaffirms our strong support for 
the people of Ukraine at this very difficult time. It 
authorizes assistance for the country as it seeks to regain its 
economic footing and prepares for democratic elections.
    It supports efforts to help Ukraine recover looted assets 
and professionalize its law enforcement and it requires 
additional broadcasting to Ukraine and other countries in the 
region to counter the outrageous propaganda generated in Moscow 
while endorsing the deployment of international monitors 
throughout Ukraine.
    The legislation also supplements the President's efforts to 
impose sanctions on those responsible for violating Ukraine's 
sovereignty and territorial integrity, looting Ukraine's 
economy and violating human rights in Ukraine.
    It sends a clear message to Putin and his cronies that 
Russia's reckless actions will have serious consequences. On 
that note, I would like commend President Obama for imposing 
sanctions that have already started to impact Russian economy 
and for leading the effort to suspend Russia's participation in 
the G-8.
    Finally, the bill expresses support for continuing U.S. 
security assistance to Ukraine and reaffirms our commitment to 
the security of our NATO partners in Eastern and Central 
Europe.
    Mr. Chairman, the House recently passed legislation to 
provide $1 billion in loan guarantees to Ukraine and the 
European Union has pledged $15 billion in assistance. But the 
most significant element of the international community's 
assistance to Ukraine will be provided by the International 
Monetary Fund.
    The IMF is now the most important international body for 
emergency rescue of countries facing serious economic 
difficulties. But the future of the IMF and our influence 
within that organization requires that Congress pass 
legislation to put into effect the 2010 plan to slightly adjust 
the voting shares on the IMF board and activate the IMF reserve 
account, known as the New Arrangements to Borrow.
    The IMF is not in our committee's jurisdiction but it is, 
clearly, in the interest of the United States that Congress act 
as soon as possible to maintain the IMF's critical role in 
international crises.
    I am told that by passing IMF reform it will ultimately 
mean about $6 billion of extra aid to Ukraine. I believe that 
we need to take a firm stance together and we are doing it with 
this legislation.
    I think that Russia needs to understand that we are going 
to boost Ukraine so that ultimately the Russian aggression will 
prove a detriment to what they think they have done rather than 
give them a plus because of the stealing of territory from 
Ukraine.
    This will only further our resolve to bring Ukraine looking 
westward rather than eastward. So we are making clear by 
passing this bill to the people of Ukraine that the United 
States is with them and that we are committed to helping them 
build a more democratic, prosperous, secure and just Ukraine, 
as I said before, looking westward rather than eastward.
    So I urge my colleagues on both sides of the aisle to 
support this very important legislation. I thank you, Mr. 
Chairman.
    Chairman Royce. Thank you, Mr. Engel. Ms. Ros-Lehtinen had 
asked for some time for a brief opening statement.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. This 
bill is important because it shows our strong support to the 
Ukrainian people and it says to all freedom-loving friends and 
allies in the region that the U.S. will not stand idly by as 
Russia bullies its way in an attempt to rebuild another Soviet 
Union.
    The Obama administration must get tough against Russia by 
sanctioning more Russian oligarchs by adding more names to the 
Magnitsky List, revoking the 1-2-3 agreement with Russia and 
reexamining our PNTR agreement with Moscow.
    I would also like to thank you, Mr. Chairman, for including 
in the bill language to support the Iran, North Korea and Syria 
Nonproliferation Act, INKSNA.
    The language reasserts that the administration must comply 
with reporting requirements to fully implement this act, 
language that was approved by the full House of Representatives 
last Congress by a vote of 418 to 2. The reports have been 
delinquent for 4 years and that is not acceptable.
    I would also like to note, Mr. Chairman, that I have a 
commitment from the full committee to move a free standing 
INKSNA legislation through the House this year and my staff is 
eager to work with your staff to make this happen. I thank the 
chairman for that.
    And while it is vital that we continue to support the 
Ukrainian people, we must not let this overshadow our 
Venezuelan friends who continue to be brutally oppressed under 
Maduro and his cronies, and that is why I have introduced a 
bipartisan bill.
    I thank the members of this committee who have co-sponsored 
it--H.R. 4229, the Venezuelan Liberty and Democratic Solidarity 
Act, which seeks to hold accountable violators of human rights 
of the Maduro regime and I hope that we can markup this bill 
soon, Mr. Chairman. Three more were killed yesterday in 
Venezuela and one of the opposition leaders, Maria Corina 
Machado, was stripped of her congressional seat by Maduro.
    Why? Because she had the audacity to come to the United 
States, here, in this shining city on the hill to speak in 
front of the OAS. She was denied the opportunity to speak 
before the OAS and now she is potentially facing a charge of 
treason for coming to speak here.
    So I urge my friends and colleagues to hold those 
accountable who are violating the human rights of and the 
dignity of others in Venezuela and throughout the entire 
hemisphere. I thank the chairman for the time.
    Chairman Royce. Let us go to Mr. Brad Sherman of 
California.
    Mr. Sherman. Thank you. I think it is important that we 
adopt bipartisan legislation as quickly as possible and that we 
avoid--that we avoid controversial and partisan division and 
avoid those divisive elements that are only tangentially 
related to helping the Ukraine.
    I think is important that the sanctions provisions give the 
President flexibility especially because there are going to be 
some individuals who, our intelligence indicates, inside the 
councils of Russia are trying to push toward restraint and 
there will be others in Putin's circle who are pushing in the 
wrong direction.
    And so we need to calibrate these sanctions person by 
person and I think can only be done by the executive branch. 
Putin comes off looking tough and trying to look victorious. 
But we should point out that he has in effect seized the 
consolation prize.
    There will be those in Moscow who will ask the question who 
lost the Ukraine because they had a pro-Russian Government in 
Kiev and now they have a pro--a Russian Government only in the 
Crimea.
    Putin backed a kleptocrat, he lost the Ukraine and now he 
is trying to look like a winner in the world and a winner to 
his own people by seizing one province wrongfully. Because that 
seizure was wrongful, we have to impose sanctions to show that 
we are dedicated to the concept of territorial integrity and 
the rule of international law.
    But our ultimate focus has to be on preventing Russia from 
trying to take more of the Ukraine and demonstrate that there 
will be massive sanctions that will undermine the Putin regime 
if he goes further into the Ukraine.
    We also have to call on the government of Kiev to do 
everything possible to refute Putin's charge that this a regime 
of winners. This cannot be at a time of national crisis 
anything other than a government of national unity.
    We need to see the Ukrainian Government do all that it can 
to involve those who were elected and there was a majority in 
the party of regions--those who are open to the use of not only 
the Ukrainian language but the Russian language and those who 
are willing to continue--to consider federalist principles and 
the devolution of power to different regions, all to show that 
this government in Kiev is not going to represent just Maidan, 
just western Ukraine but even those Russian speakers in the 
south and the west.
    Finally, as to energy exports from the United States, that, 
over a period of decades, might lower energy prices and affect 
the revenues of Saudi Arabia, Iran, Moscow and others. But I 
don't think that a country like the Ukraine that does not have 
a single LNG import terminal is going to be effected in the 
short or medium term by whether we export natural gas.
    While technically we could export petroleum, we will be 
importing far more petroleum than we export for many years to 
come. So there is a brewing controversy on whether we should 
drill, baby, drill and export our--some oil and maybe more 
natural gas.
    I am hoping that our focus today will be on things that 
affect the Ukraine in the short and medium term, and I yield 
back.
    Chairman Royce. Just to recognize myself for a minute, I 
very much agree with the gentleman from California on his point 
for all Ukrainians to contemplate this issue of national 
reconciliation.
    It is at this time that Ukrainians in the east, the south, 
the west all really need to figure out how to send the message 
that all Ukrainians are welcome regardless of language, 
regardless of ethnicity.
    On, however, the issue of gas, we have already seen Hungary 
and Poland--we have seen the ability of the use of the gas 
lines that exist in Eastern Europe with the reverse flow of 
that gas to send 2 billion cubic meters last year into the 
Ukraine.
    The Ukraine is in this tenuous position and, frankly, 
Russia's annexation was made easier by the energy grip it had. 
The fact that if we get energy or gas into Eastern Europe that 
we can use existing pipelines to get it to the Ukraine is an 
important consideration.
    Now, clearly, it will take time to ship that gas. But at 
the same time, markets tend to move instantaneously with 
information and if we telegraph the message that that is our 
intent then he already begins to see the impact of that on the 
futures market of gas. Gazprom really is the state-controlled 
gas company that Putin has used to cut off the supply to 
Ukraine and earlier this month it did this just as it did in 
2002 and 2009.
    Gazprom recently wrote in the financial press as now saying 
it is going to double the price Ukraine pays for natural gas, 
which would really cripple the economy there.
    So that is why--Mr. Sherman as well--I raised this as a 
consideration--a geopolitical tool here that could be used in 
order to send the message that we have got a strategy in order 
to undercut the ability of Putin to do this.
    Do any other members seek recognition on the base text? Mr. 
Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. Move to strike the 
last word.
    I want to commend you and the staff for getting this timely 
legislation on Ukraine before the committee this morning. It is 
very important that the Congress map out a strong position on 
President Putin's acts of thuggery and I know we can count on 
the solid support of this committee today on H.R. 4278.
    I also want to express my strong support for the resolution 
affirming the importance of the Taiwan Relations Act. As we 
commemorate the 35th anniversary of the TLA let us remember 
that our diplomatic relationship with the People's Republic of 
China is premised on the expectation and the principle that the 
future of Taiwan will be determined by peaceful means.
    Finally, Mr. Chairman, I strongly support H. Res. 418 which 
raises awareness of the ongoing violence and discrimination of 
the minority Rohingya Muslim population in Burma. The 
resolutions call for the U.S. and international community to 
hold Burma accountable to end its blatant persecution of the 
Rohingya population comes at a critical time.
    So I thank you for bringing these very important issues up 
this morning, Mr. Chairman. I yield back my time.
    Chairman Royce. We go to Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman, and I want to thank you 
and Ranking Member Engel for coming together and speaking with 
one voice.
    I think that as we talk about what is going on in the 
Ukraine now it is important that there is unity and that we try 
to speak from the United States' point of view with one voice 
from both the Democrats and the Republicans because the issue 
involves or is important to all of us and that we look at those 
areas of which are our common denominator so that we try to 
deal with those matters that we can come to an agreement on.
    Likewise, I think it is also important and I think that the 
President of the United States has been doing a good job in 
making sure that we are not speaking with one voice as the G-7 
is currently meeting and operating--that also that we have to 
listen to the voices of our NATO allies because if it is just 
something done on a bilateral area and not a multilateral area 
then that then divides us and it weakens us and the resolve to 
make sure that Mr. Putin doesn't go further or look to divide 
us from our allies.
    So it is important as a conversation and the President's 
negotiating that we are doing certain things and we take into 
consideration our NATO allies and their position and how far 
that they can go and move and we lead in that direction 
because, you know, the dialogue and the conversation.
    But if ever we get to the point where we say that we don't 
care what they think or how it affects them then it will affect 
us also in a negative way. It will affect the leverage that we 
will have on Mr. Putin.
    So we have got to make sure that we are mindful of, you 
know, where our allies are. Especially, I know I have talked to 
some members yesterday from the German Parliament and they have 
deep concerns in regards to Mr. Putin and moving forward and 
wanting to make sure that we stay in lock step--they stay in 
lock step with the United States.
    They have some other problems also and they want to make 
sure that those are listened to, that we work together. And I 
think what I have heard by the President talking about that if 
there are some--further movement by Mr. Putin then our allies 
are ready to escalate the sanctions and we should be ready to 
move forward and get--and tighten those sanctions in that 
regard.
    But I just, you know, want to be mindful, you know, it is 
easy to say to--sometimes to go to war or to send weapons or do 
that. That is the easy thing to do. The hard thing to do 
sometimes is to sit down and try to figure out how we stay in 
line with our allies and work together and I hope that they do 
that.
    I hope that we do that because just as this is important 
for us to stay together and come together it is important for 
us to make sure with our international allies and to that 
regards, you know, we talk about, you know, our colleagues to 
the west. It is important for us to be reengaged and 
reinvigorate those relationships.
    And so as we talk about the Ukrainian issue we have got to 
make sure, and I couldn't agree more with what you said, Mr. 
Chairman, and what Mr. Sherman said about Ukrainians coming 
together, it is now time for them to unite, to speak with one 
voice also.
    That is tremendously important. It is important for us also 
to make sure that right now, not waiting until another time, 
that we engage with the Moldovans and the Georgians and the 
people from Azerbaijan and all of the other countries in the 
region, that we are talking to them and they know that we have 
an interest in their overall well being and their economy and 
in their democracies.
    Let us not wait until there is something else that happens 
and then we all of a sudden are jumping in. Let us show, and I 
think that that is what this bill does--it shows that we are 
going to stand by the Ukraine.
    We are going to try to help them with their economic 
circumstances so that they can stand on their feet and improve 
their democracy. It sends the right message. I believe then 
thereby it will send the right message to our other allies in 
the region.
    That is tremendously important and, again, I end as I 
started, Mr. Chairman, because we could get into a lot of other 
debate here that could divide us but you and Mr. Engel have 
chosen not to do that. You have chosen to focus on what brings 
us together and I think you should be complimented for that, 
and I yield back the balance of my time.
    Chairman Royce. Thank you, Mr. Meeks.
    We go to Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, I am afraid I will be 
opposing--again, probably the lone voice in some of these 
debates--opposing this measure and I do so in great despair as 
to the direction of what is going on in our country today in 
relationship to Russia.
    I worked for many, many years and put my life at risk 
several times. I was not in the military but put my life at 
risk several times in order to defeat communism. I spent my 
whole life trying to defeat communism. We were not trying to 
defeat--we were not trying to become hostile to the people of 
Russia.
    We were against the Soviet Union, which is not Russia. Now 
we have a situation in which there is a, obviously, distinct 
difference of national interests and instead of trying to play 
a constructive role it appears that we have opted out instead 
to fan the flames of hostility between our two countries.
    There are many people who I worked with over the years who 
are stuck in the Cold War. They cannot sit by and understand 
that Russia has its national interests as we have our national 
interests and try to find ways that we can work together in 
peace and friendship, understanding that we are two great 
powers that have national interests at stake.
    I do not--in this particular debate if we are to be 
listened to and to be--and try to find a peaceful solution the 
Russians have to respect that we are there trying to find a 
solution, not try to utilize this controversy as a means of 
defeating them and pushing them into a hole because, after all, 
they are Russians and they are thugs and they are gangsters 
and, of course, our people are--would have never committed such 
crimes as sending an army into Crimea.
    I would like to commend my good friend, Congressman Engel, 
who worked very closely with me when we backed the Kosovars' 
right to self-determination and supported the bombing of Serbia 
in order to protect those people's right of self-determination.
    What do the people of Crimea want? I don't think anybody in 
here will disagree with the fact that it is clear the people of 
Crimea would rather be part of Russia than be part of a pro-
European or European-directed Ukraine.
    Well, the people of Crimea just like the people of Kosovo 
have their right of self-determination or should have. I think 
Russia was wrong. I think Putin was wrong in trying to send in 
a military force.
    I think that clouded the issue. But the hypocrisy on our 
side of suggesting or trying to suggest this is out and out 
aggression for the people of Crimea to have their will to be 
part of Russia is a little bit overwhelming.
    I remember--just more recently than Kosovo I remember--
didn't we support South Sudan breaking away from Sudan? Yes, we 
did. Well, let us--you know, let us be just in our criticism.
    Yes, Putin should not have sent in those troops but this 
was and, again, he should not have had the right--he shouldn't 
have had the wording they had on their referendum in Crimea. 
They could have had an adequate wording on the ballot and, yes, 
they should have had the OSCE in to determine what the people 
of Crimea want officially.
    But in our heart of hearts we know that the people of 
Crimea and especially those of us who have been there--10 years 
ago I visited Crimea. They all spoke Russian.
    Now, what is that? It is a historic reality unfortunately 
because Stalin murdered so many people there and ethnic 
Russians moved in and we know that, and we are sorry about 
that.
    But self-determination is based on people who live in a 
given territory determining their future and in this case the 
Russians are supporting the people of Crimea's right to 
determine where they want to go and we are opposing that and 
making it sound like it is naked aggression and doing so at 
great--I say great damage to the long-term security of both the 
United States and Russia.
    Russia and the United States should be best friends because 
we face the same ultimate enemies of a radical Islamic movement 
that would murder our own people and, yes, an emerging China 
that hasn't had one bit of reform at all.
    Yet we have placed Russia--sanction after sanction on 
Russia that has had dramatic reform, whose churches are full, 
yet we give China, what, we give China technology. We give them 
subsidies.
    We give them recognition and yet they murder religious 
believers even as we do, and we ignore that. The double 
standard that we have for Russia has been aimed at pushing them 
into a hostile relationship with us and I oppose that whole 
concept. Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    We go now to Mr. Connolly of Virginia.
    Mr. Connolly. I thank the chair.
    I am astounded at the apology I have just heard from my 
friend from California. Reform? I think not. Apparently, once a 
KGB agent always a KGB agent.
    Mr. Putin seems to have learned nothing from history other 
than there is power at the end of the barrel of a gun. To cite 
Russian speakers in Crimea as a rationale for one of the most 
audacious power grabs in the 21st century, in Europe no less, 
forgets history.
    Crimea was settled by Stalin, by Russian speakers, and 
they--and he expelled and executed the native population of 
Crimea, and this so-called referendum in Crimea was also done 
at the barrel of a gun. Russia's interests weren't threatened 
in the Crimea.
    The new government in Kiev never abrogated the treaty that 
allowed Russian privileges--naval privileges through 2042. The 
Ukrainians didn't occupy Russian military stations in the 
Crimea and around the region. It was the other way around.
    For the United States and its allies to allow this naked 
aggression to go unaddressed would be truly an abrogation of 
our moral responsibility and turn our back on what we should 
have learned from 20th century history.
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Mr. Connolly. If I may continue for a second. We need to 
stop talking about he better not go further. I am stuck at 
Crimea and I hope my colleagues are too. It is wrong.
    It cannot be allowed to stand and we must make him pay a 
price, and the difference between now and Stalin is that his 
economy is integrated into the global economy. The ruble will 
fall. The stock market will pay a price.
    Investment will suffer because we are going to help make it 
so until he relents, until they pay a price that is so great, 
systematic, comprehensive in their economy that he will 
understand that we no longer operate by the rule of the jungle 
in Europe or, indeed, anywhere on the face of the planet, not 
with our blessing, not with our apology.
    So I strongly support the legislation in front of us, Mr. 
Chairman, and I respectfully but forcefully disagree with 
virtually everything my friend from California has just said 
and I now would yield for a question.
    Mr. Rohrabacher. The question is I would take it that you 
also opposed America's support for the people of Kosovo and the 
South Sudan for their self-determination, and could you cite 
any polls that indicate that the people of Crimea--every 
indication that I have seen from the experts indicate that they 
overwhelmingly want to be part of Russia--do you have any polls 
that indicate any different?
    Mr. Connolly. Well, you have asked several questions. I 
decidedly see Kosovo and South Sudan as distinctly different. 
Both of those were in fact subject to international sanctions, 
to international controls and to, in the case of Kosovo, 
concerted NATO action pursuant to law--pursuant to statutes 
that govern that action.
    This has none of that, not even the pretense of it other 
than an action by--a unilateral action by the Russian 
parliament----
    Mr. Engel. Would the gentleman yield?
    Mr. Connolly [continuing]. And a patsy action by the 
Parliament in Crimea.
    Mr. Engel. Would the gentleman yield?
    Mr. Connolly. I would.
    Mr. Engel. Thank you, and I agree with everything the 
gentleman just said. Let me say to my friend, my colleague from 
California who really stood with me and others very valiantly 
throughout the entire Kosovo War in 1999 and has been a strong 
supporter of human rights, but I disagree with him tremendously 
in trying to say that there is any kind of analogy between what 
happened in Crimea and what happened in Kosovo.
    I don't believe that every separatist movement claiming 
some kind of referendum should be allowed to form either an 
independent country or to be part of a power grab. What 
happened in Kosovo was genocide. That didn't happen in Crimea.
    What happened in Kosovo was the Serbian leaders trying to 
drive every ethnic Albanian out of Kosovo and the ones that he 
couldn't drive out he actually murdered them. That was a 
situation that came about by the actions of the Serbian 
Government.
    So I think to draw any kind of analogy whatsoever between 
what happened in Kosovo to what happened in Crimea is just 
incorrect. We don't think that every minority group or majority 
group that is part of another country has a right to declare 
its own country.
    But when genocide is happening I think that tilts the 
balance and that is why NATO, as Mr. Connolly points out, 
uniformly said enough is enough and intervened to stop the 
genocide. So no analogy at all between Crimea and Kosovo.
    Mr. Connolly. Mr. Chairman, I know my colleague, Brad 
Sherman, wanted to ask a question. Would the chairman indulge 
me to yield to my colleague?
    Chairman Royce. If you wish to yield at this time that 
would be----
    Mr. Connolly. I thank the chair.
    Mr. Sherman. I would just point out the people of South 
Sudan were faced with mass murder, perhaps genocide. The people 
of Kosovo were faced with mass murder and ethnic cleansing, and 
the people of Crimea saw that their rights were being 
protected.
    They are an autonomous region. They continued to have their 
language rights. There is a difference. I yield back.
    Mr. Connolly. Mr. Chairman, I just want to say on a point 
of personal privilege----
    Chairman Royce. I think the gentleman's time has expired.
    Mr. Connolly. I know, but I want my colleague to know he 
knows he has my deep respect. But on this issue, he also has my 
passionate disagreement.
    Mr. Rohrabacher. Thank you. Thank you, Mr. Chairman.
    Mr. Connolly. I thank the chairman.
    Chairman Royce. We now have--we now go to Judge Ted Poe of 
Texas.
    Mr. Poe. I thank the chairman. Mr. Chairman, this issue is 
of importance to the United States' national security interest. 
I think we are living in a fantasy land if we think that the 
bully-bear Putin wants to be nice to the neighbors that 
surround him.
    That is absolutely naive. He watched as we watched when the 
Russians invaded Georgia. There was a little bit of press 
worldwide about the invasion of the Republic of Georgia and I 
am not talking about the state of Georgia in the South.
    I know some of my Georgia friends are concerned about 
thinking that Georgia has been invaded and they didn't know 
about it. But in any event, he watched to see what we would do. 
He took one-third of the country.
    We said that is not nice. You shouldn't do that. You are 
invading a sovereign country, and we moved on and he is still 
there. One-third of Georgia is still occupied by the Russian 
army. The West, the world did nothing.
    So he then looked at the Crimea. That was next on his list, 
and I agree with my friend from Virginia, we should be 
concerned about Crimea first before we are wondering about 
whether he is going into Moldova, the rest of the Ukraine, 
Estonia, Belarus. You know, those are possibilities.
    And what happened in Crimea? He marched in. We watched, and 
dealing with Putin he has started Cold War II. We should be 
aware of this, and whether we like it or not he chose this 
activity.
    So I think it is in our national security interest and the 
security of our allies and our friends that he be told no, you 
can't do this without some consequences. This legislation 
presents those consequences to the Russian bear, letting him 
know no, you are not going to get away with it this time.
    And so I have--as mentioned earlier, I have great respect 
for my friend, Mr. Rohrabacher from California. But on this 
issue I think we should act, act decisively and act with the 
appropriate measure of sanctions to let, you know, the Napoleon 
of Siberia know he can't just invade countries and the rest of 
the world just moves on, and there should be consequences. I 
support the legislation.
    Chairman Royce. Would the gentleman yield time to the 
Chair?
    Mr. Poe. I certainly will.
    Chairman Royce. Well, thank you. I did want to make one 
observation here, Mr. Poe, and that is what we are not talking 
about is a revival of the Cold War.
    What we are talking about is trying to get some leverage on 
Russia in order to wind down this situation and I think we 
should be clear here.
    We are not reviving confrontation. The individual who did 
that is the head of state for Russia and he, obviously, has the 
ability to wind this down. But if we put additional pressure on 
him and those close to him, I think we might have considerable 
more success at this than we have in our attempts to cooperate 
with him over the many years where he has rejected the approach 
of cooperation and he has chosen aggression--aggression against 
the Ukraine, aggression against other countries.
    I don't think we can allow him to proceed unchallenged or 
we are going to be faced with this challenge again and again. 
There will be other unnecessary crises that will result if we 
don't move decisively.
    So yes, the United States stands ready to cooperate with 
Russia but we need to give an incentive for Russia to cooperate 
with us. Again, this is one of the reasons why I have suggested 
that by bringing competition into this with respect to gas into 
Ukraine and Eastern Europe and breaking the monopoly that 
Russia has--it is 70 percent of the export out of Russia, it is 
52 percent of the entire budget for his military and 
government--if we do this along with the other steps that we 
take here to build democracy, to build support for institutions 
within Ukraine, I think we have taken a decisive step to create 
those second thoughts, to create that leverage. And my time has 
expired so I will now go to Mr. Grayson of Florida.
    Mr. Grayson. Thank you, Mr. Chairman, and thank you, 
Ranking Member Engel. I want to join in some of the comments 
that were made by my friend Dana from California.
    Less than 2 weeks ago in response to a question from the 
gentleman from central Florida, Secretary Kerry said that 
without a doubt if there were a free and fair election in 
Crimea, Crimea would vote to join Russia.
    I think that is an important fact. In fact, I think that is 
the central fact of the situation that we face today.
    All over the world, millions of people are stuck in the 
wrong country and the term--the great accomplishment of the 
20th century was to seek the end of colonialism, the end of 
colonies, millions and millions of people stuck in the wrong 
country by means of military force by European powers.
    Maybe the goal of the 21st century is to see the 
fulfillment of that principle that groups of people can join 
together and create a country, join another neighboring 
country, be part of the country that they want to be part of--
the principle of self-determination.
    We can't ignore the fact that 2 million people in the 
Crimea feel that at least until now they were stuck in the 
wrong country. This situation was created when, in 1956 
Khrushchev, as a gift, gave the Crimea to the Ukraine.
    At that point it didn't matter too much because both 
Ukraine and Russia were part of the Soviet Union. Since the 
dissolution of the Soviet Union at the beginning of the '90s it 
has mattered a lot and in fact there are Russian speakers, 
large groups of Russian speakers, who are now beyond the border 
of Russia, and one of the great issues of Russian foreign 
policy for the past 20 years has been what do we do about 
that--how do we deal with the fact that there are substantial 
numbers of people who are now outside of our border who 
identify themselves as Russians or ethnically Russian or 
culturally Russian or indistinguishable from the people within 
our borders.
    The old Soviet Union contained 15 states with borders that 
were arbitrary. Now, there are actually parts of the old Soviet 
Union that are fundamentally different from Russia. For 
instance, if in fact we saw Russian military action against 
Lithuania, obviously, we would repudiate that. We would do 
everything we could to stop that.
    The Lithuanians historically, ethnically, in terms of 
religion, in terms of culture are fundamentally different from 
the Russians. The Crimeans are not.
    In one election after another after another in the entire 
20 years that the Ukraine has been an independent country 
again, since it was an independent country hundreds of years 
ago, the Crimean population has shown that it is loyal to the 
Russians. It identifies with the Russians. It has voted over 
and over again with the Russian party contesting elections in 
the Crimea.
    Now, recently we saw that the candidate whom the Crimeans 
supported by over 90 percent of their votes the Russian-
speaking candidate was thrown out of office. Now, you may say 
that he was thrown out of office for good reason. There are 
allegations against him that he was corrupt.
    There are allegations against him that he used the military 
against his own people to stay in power. But the fact is from 
the perspective of the Crimeans, their leader, the one that 
they placed in charge of their country, was thrown out of 
power.
    So it should come as no surprise, as Secretary Kerry 
recognized, that the Crimeans had had enough and they wanted to 
leave this artificial entity called the Ukraine.
    Now, in fact, the Russians did assist. They assisted by 
disarming the local Ukrainian army and navy. That is what they 
did. They did it virtually bloodlessly. They did that so that 
the Ukrainian army and navy could not interfere in the 
referendum that was held.
    That is the fact of the matter. Why are we pretending 
otherwise? Why are we speaking about naked aggression? Why are 
we speaking about stealing Crimea? Why are we speaking about 
bullying or the new Soviet Union or thuggery or audacious power 
grabbing or bully-bear Putin or Cold War II?
    I am surprised that Judge Poe didn't tell us that he has 
said that the Iron Curtain has descended over Sevastopol. The 
fact is, as the chairman has recognized, this is not some new 
Cold War that is occurring. In fact, it is quite the contrary.
    We should be pleased to see--pleased to see when a 
virtually bloodless transfer of power establishes self-
determination for 2 million people somewhere in the world--
anywhere in the world.
    And, in fact, what we are seeing here instead is the 
vilification of Putin, the vilification of Yanukovych, the 
vilification of anybody who we try to identify as our enemy. 
Before it was Saddam Hussein. Before that--before and since 
then it has been Assad.
    This does not help. The basic provision here, the basic 
principle here is self-determination. That is what is happened 
in the Crimea and it is not for us to determine otherwise. I 
yield back.
    Chairman Royce. Would the gentleman yield for a minute?
    Mr. Grayson. Yes.
    Chairman Royce. I thank the gentleman for yielding. I want 
to make clear that the adjectives used or referenced are not 
the adjectives we use in this carefully worded resolution, 
first of all.
    Second, the problem or the difficulty isn't so much with 
the example of a Lithuania. The problem is with the example of 
an Estonia or Latvia, countries in which people were moved out 
during Stalin's tenure into Siberia and replaced with ethnic 
Russians so that today in those two countries you have strong 
minorities of Russian speakers in Estonia and Latvia.
    You have the same situation in Crimea to a greater extent 
because in Crimea the majority of the ethnic population in fact 
perished in the gulags and so within migration of Russian 
speakers into the area you have a different circumstance.
    Part of the problem in terms of the way in which the 
referendum was held was, clearly, it was unconstitutional. It 
was illegal. It occurred under Russian military occupation and 
coercion. But you also had a situation where opponents were 
silenced.
    International monitors were barred and, most importantly, 
voters were not given the option of preserving Crimea's current 
status with Ukraine because the only choice on the ballot was 
independence and de facto independence.
    And, frankly, I think the vote itself was unnecessary 
because the Ukrainian Government had made it clear that it 
would discuss increasing autonomy for Crimea and, frankly, that 
was probably the way to solve this thing.
    By allowing Crimea to have that autonomy within whatever 
you wanted to call, you know, let us say one country two 
systems but you would--you would basically be giving to Crimea 
the autonomy that the local population desired.
    The Presidential elections that are now planned for May 
25th are going to provide a legitimate opportunity for all 
Ukrainians to make their voices heard on the future of their 
country. I am going to lead a delegation there in April.
    We are going to speak to all factions in the Ukraine. Mr. 
Sherman spoke to the issue that we want to convey one of an 
attitude of national reconciliation for Ukrainians.
    But right now we are faced with a certain challenge and 
that challenge is if we do not send a strong message here, what 
happens with respect to Estonia or with respect to Latvia if a 
similar situation surfaces where the argument is made that a 
Russian population lives within those two countries, and we 
can, of course, extend that to any number of countries on the 
periphery of Russia, as you have pointed out, I think that we 
have got to get back to a process whereby this is done in 
consultation with the international community and there isn't 
an excuse given for Russia to move aggressively on other 
countries, using as an argument, frankly, propaganda that is 
not really occurring.
    And the propaganda component of this was the thought that 
ethnic Russians were being beaten. This is why in our 
legislation one of the most important aspects, to me, is also 
the inclusion of Radio Free Europe, Radio Liberty broadcasting 
into the country in these languages to allow ethnic Russians to 
know in real time what is actually happening in the country to 
offset propaganda.
    But I did want to bring up those points with respect to the 
underlying resolution. We are going now to Mr. Smith of New 
Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman and Ranking 
Member Engel, for introducing this comprehensive legislation to 
support Ukraine in its urgent effort to meet its current crisis 
including viability of its democratic institutions.
    Russia's land grab in Crimea violates the core principles 
of the bilateral and multilateral treaties between Ukraine and 
Russia, the Budapest Memorandum, the United Nations Charter, as 
well as the Helsinki Final Act.
    The proposed legislation includes a strong sanctions 
component against Russians responsible for this aggression. 
H.R. 4278 also authorizes targeted sanctions against Ukrainians 
involved in undermining the democratic processes and provides 
assistance to the Ukrainian Government for identifying and 
recovering stolen assets.
    It is, after all, these criminal officials including, and 
especially, Yanukovych and his cronies who have so harmed the 
Ukrainian people and placed the country in the vulnerable 
position which Russia has ruthlessly exploited.
    Another key provision of the bill provides support for 
Ukraine's democracy and civil society, and here I want to 
recognize the importance of supporting as well the faith-based 
groups and organizations that played such a prominent role on 
the Maidan and in supporting the movement for democracy and the 
rule of law.
    The Ukrainian democracy movement is in large part a 
religious movement. Orthodox and Catholic clergy, for example, 
were prominent in the protests and the drama of priests 
carrying icons confronting soldiers became as much a symbol of 
the democratization movement as anything else.
    Religious and faith-based organizations are very much part 
of civil society and democratization and a conscientious voice 
for the rule of law and anti-corruption efforts, and this 
legislation with the amendment that will be offered shortly 
includes them specifically, and I yield back.
    Chairman Royce. We go now to Mr. Lowenthal of California.
    Mr. Lowenthal. Thank you, Mr. Chair.
    I want to thank you, Chairman Royce, and Ranking Member 
Engel for bringing forward the Support Ukraine Act, which I 
strongly support. It is critical to the United States to back 
Ukraine sovereignty, its territorial integrity and its 
independence.
    I condemn Russia's attempt to annex Crimea in violation of 
international law. I strongly support the sanctions for 
individuals responsible for the loss of Ukrainian assets who 
have significantly undermined democratic processes in the 
Ukraine or have committed human rights abuses.
    However, I would like to raise an issue that is contained 
in the Support Ukraine Act which probably is not within the 
jurisdiction of this committee. As we seek to promote 
democratic values in the Ukraine and to support those 
democratic and uphold those values, we must not lose sight of 
our own democratic values here in the United States.
    The bill provides broad discretion to the administration 
and its staff in the Department of State and Homeland Security 
to revoke visas for individuals they determine to meet certain 
criteria.
    While I understand and support the need to provide 
discretion to the administration under these extraordinary 
circumstances, I remain concerned about the lack of any 
judicial recourse for those that are affected.
    As this bill moves forward, which I do support and hope 
that it does, I will request that the Judiciary Committee 
address this lack of judicial recourse. Thank you, and I yield 
back.
    Chairman Royce. And if--would the gentleman yield for just 
one moment?
    Mr. Lowenthal. Yes, I would.
    Chairman Royce. If I could respond to Mr. Lowenthal. The 
sections of the bill regarding visa sanctions, including the 
preclusion of judicial review, these are not amendable at our 
markup.
    I just wanted to explain this, that those portions which 
concern the immigration and nationality act and parts of Title 
28 of the U.S. Code that deals with the judicial proceeding 
portion of this, they are in the legislative jurisdiction of 
the Judiciary Committee. So that will be part of the process.
    We go now to Mr. Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman. With great respect for 
my friend from California who is from the best named city 
there, Sherman Oaks, I want to address the idea that there is a 
brewing controversy over drilling and selling natural gas, and 
I want to bring my colleague's attention to the fact that when 
President Bill Clinton was in office there was a controversy 
over drilling in the ANWR.
    And a lot of the comments and I think my colleague in 
California said drill--the brewing controversy of drill, baby, 
drill. There was a bumper sticker that was very prevalent in 
Texas back during the controversy over ANWR that said drill 
here, drill now, pay less. Joaquin, you might remember that.
    And the comments were made, those who were against drilling 
in ANWR, that look, it would take 10 years for any of that oil 
to reach us. By the time the permits were done, by the time the 
pipeline was built, by the time production was done it would be 
10 years before we would see any of that oil. It is pointless.
    And so if memory serves me correct, Bill Clinton left 
office in 2001. Had we drilled then we would have the benefit 
of that energy now. I think this current crisis points up the 
fact that it is indeed a controversy that when America can 
become energy independent it not only serves to create jobs in 
this country, which we sorely need right now, but it also 
produces energy independence, national security for America and 
even produces national security around the world.
    Ask our friends in the Ukraine if they would rather be 
buying LNG--and I have three LNG plants either in my back yard 
or in my district--ask them if they would rather be buying gas 
from America or the Russian bear, as Judge Poe called him.
    I think the answer is pretty straightforward. We cannot, in 
my opinion, ignore the fact that this is a national security 
controversy, if we want to use my colleague's words from 
California, but that it is an important one that needs to be 
had, and had we drilled in the ANWR 15-plus years ago we would 
be in lot better shape. The world would be a safer place.
    So the question I pose: 10 years from now are we still 
going to be saying oh, we have got this brewing controversy 
about drill for natural--LNG and natural gas and export it to 
other countries?
    It means jobs for us. It means a balance of trade for us. 
It means national security for us, and it means--I would argue 
it means international security around the world. So that the 
kinds of things that we saw Putin do the Ukraine in cutting off 
their energy supply cannot be done.
    Now, I am going to switch gears to Part B. When you have a 
Crimean legislature that votes unanimously to be reannexed into 
Russia, where are the people to stand up and say no? And I was 
told by one of my colleagues when we last had this discussion, 
well, if you had a gun aimed at your head you would say no, 
too.
    You would have joined--you would have joined, rather, and 
voted for annexation, and I reminded him that 56 signers of our 
Declaration signed their name to a document, stuck their finger 
in the face of the--the eye of the biggest tyrant in the world, 
King George, back then--the most powerful country with the most 
powerful army.
    And in signing that Declaration they signed their death 
warrant knowing that they would either be shot on sight or hung 
as a traitor. If people in Crimea did not want to be annexed 
where were the voices to stand up and say no?
    So it troubles me that we are guaranteeing them money and 
that we are getting involved, as my friend from California, 
Congressman Rohrabacher, says, in a situation where, clearly, 
it seems as if either they were unwilling to stand up and fight 
for their own liberty or unwilling to pay that price, and yet 
we are going to get involved and we are going to get between 
the two.
    That is very troubling. I have great respect for Chairman 
Royce. I have been overseas with him and watched him amongst 
the other countries and the knowledge he has and the way he is 
respected.
    So I am going to wrestle with this one, and I have great 
respect for my colleague, Mr. Sherman, from Sherman Oaks, the 
best named city in California.
    Mr. Sherman. Gentleman yield?
    Mr. Weber. I will yield.
    Mr. Sherman. We are about to have hearings on the whole 
issue of energy exports. My hope is to keep that out of this 
resolution here because it can be controversial. Had we drilled 
at ANWR, there are various things that would have happened, but 
I think that Russia would be hurting just as much for every 
barrel of oil that it exports as today. I don't think it would 
have affected world prices. And I would point out that in Japan 
now, they are paying triple what we are for natural gas. They 
are paying one and a half times what they are in Germany. And I 
doubt that we are going to see a decline in what Europe is 
willing to pay for Russian natural gas, knowing that the 
Japanese are there as potential buyers. I yield back to the 
gentleman.
    Mr. Weber. I thank the gentleman for his comments. Mr. 
Sherman, I will shut up and yield back. Thank you.
    Chairman Royce. Thank the gentleman from Florida. We are 
going to have to move to consider the manager's amendment en 
bloc and other amendments. I have got Ms. Frankel from Florida 
seeking time and Mr. Keating. I thought I would recognize them 
and then try to move to, since we are going to have members who 
are going to have amendments, but let us now go to Ms. Frankel.
    Ms. Frankel. Thank you, Mr. Chairman. I do support this 
act, but I do have--I have enjoyed this debate and I would like 
to raise two questions and then I would yield my time to those 
who would like to answer. This has to do with the proliferation 
of nuclear weapons. Under the Budapest Amendment of 1994, the 
United States, the United Kingdom, and the Russian Federation 
made assurances to protect Ukraine in the event its territory 
or sovereignty is threatened by a foreign entity in exchange 
for Ukraine voluntarily giving up its uranium and nuclear 
warheads to Russia, at the time the world's third largest 
arsenal.
    So my first question really would be probably to Mr. 
Grayson and then Mr. Chairman, I would appreciate your answer, 
is how would you relate this Ukraine Support Act to that 
agreement? And secondly, do either of you believe that this act 
will in any way affect negotiations either with Iran or Syria? 
I would yield my--Mr. Grayson, you want to take a stab at that?
    Mr. Grayson. Yes, I think it is fair to say that the 
Russians have skated around the agreement that they signed 20 
years ago. I think that there is a great deal of troubling 
details with regard to how the situation has unfolded. I think 
the chairman quite accurately enumerated many of them. The 
question for me is whether that somehow trumps the desire and 
the need for the people of Crimea for self-determination. In my 
case, I think it doesn't. That doesn't mean that we need to 
overlook the fact that the Russians appear to have violated the 
agreement that you mentioned, overlook the fact that the 
Russians doubled the legal amount of soldiers that they had in 
the Crimea leading up to the referendum and a number of other 
irregularities. But I don't think that we are on the right side 
of history as President Obama might say. We are standing 
against the right of the people of the Crimea for self-
determination.
    Ms. Frankel. Mr. Chair, or maybe Mr. Engel, could you 
answer that question, your thought of how the Budapest 
Memorandum of 1994 relates to this discussion?
    Chairman Royce. Would you repeat that question, Ms. 
Frankel?
    Ms. Frankel. There was, it is my understanding Ukraine 
voluntarily gave up its nuclear arsenal with the promise from 
the United States, United Kingdom, and the Russian Federation 
to protect their sovereignty, so it seems to me there may be 
some precedent or implications if we do not move forward with 
this type of act. But I just wanted to get your sense of that.
    Chairman Royce. Well, I would just point out that the 
political document that you refer to, Ms. Frankel, was not a 
security treaty. The United States is not bound under that 
document. And so I don't think that is relevant to the debate 
of the resolution here, nor do I think this resolution 
complicates in any way the suggestion that I think you are 
alluding to.
    Ms. Frankel. Well, Mr. Chair, if I may?
    Chairman Royce. Yes. Perhaps I don't understand exactly 
what you are asking.
    Ms. Frankel. I think it supports it. I think that just in 
terms of precedent, I mean if we do not back up in some way an 
agreement, we got Ukraine to give up a nuclear arsenal with an 
assurance to maintain, that we would protect their territorial 
integrity. Obviously, Russia is violating that.
    Mr. Engel. Ms. Frankel, if you would yield to me?
    Ms. Frankel. Yes.
    Mr. Engel. I think you are right on the money with that 
one, absolutely. That was signed at a time when Russia perhaps 
felt more vulnerable than it feels now and Putin feels 
strengthened now for many reasons, one of which is the energy 
revenues that he gets making Russia a power again. And 
therefore, he has conveniently neglected, abrogated, or 
whatever it is, agreements that Russia signed back then because 
he feels he is stronger now. He is a bully now and he can 
afford to do it. So I think you are quite right. This 
legislation stands up to that and says there is bad faith by 
Russia. It is not simply a matter, as some of my colleagues 
have put it of self-determination. It is a matter of Putin 
being a bully because he just feels that he can be.
    Ms. Frankel. Thank you, Mr. Chair.
    Chairman Royce. Would the gentlelady yield? Again, the 
point I was making is that the document itself does not require 
a military response clearly, but Putin's logic would dictate 
that we take what steps we could to leverage the conduct of 
Russia in order to penalize Russia for violating the agreement 
that Ukraine made as you have articulated and so that Russia 
understands that there will be a consequence in the future if 
this conduct continues. And I think what gives us all pause is 
this speech he made to the Duma recently in which he said the 
boundaries of Russia are not the boundaries of the current map 
of Russia, that Russian populations anywhere are considered 
part of Russia. That type of extra territoriality is perhaps a 
signal that we have to be aware of other intentions and hence, 
prudence would suggest that we need to move decisively with 
leverage in order to put pressure on Moscow not to attempt 
this.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I just want to close 
and frame this resolution that I am supporting, this 
legislation this way. What was done and what Russia did was 
illegal. Now there are other means of dealing with issues of 
autonomy. There are international ways to deal with that, and 
with Kosovo they did that with the Security Council.
    It can be done under the Ukraine constitution and the Prime 
Minister has made clear that he is open to discussions and 
dialogue on these issues of autonomy. If it is done legally 
everyone's rights, including groups like the Crimean Tatars, 
everyone's rights are better protected. That is the way it 
should happen. The way it has happened has been at the barrel 
of a gun. That is what this legislation addresses. The 
illegality of what was done and I don't think that should be 
lost in us. And I yield back.
    Chairman Royce. I thank the gentleman for yielding back. If 
there are no further speakers on the underlying bill, I 
recognize myself to offer a manager's amendment which was 
provided to your offices last night and the clerk will report 
the amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Royce of 
California.
    Chairman Royce. Without objection, the manager's amendment 
is considered read and I will recognize myself briefly to 
explain the amendment.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. This amendment includes several items which 
were shared with the ranking member and which were distributed 
to all members' offices. There are also additions from other 
members of the committee, Mr. Smith and Mr. Cicilline. As I 
noted in my opening statement, the underlying legislation is a 
strong message of support for Ukraine and pushes back against 
Russian aggression and this amendment contains a few more items 
in support of that cause.
    Importantly, the amendment allows for the President to 
target those corrupt officials closest to Putin, targeting them 
for their asset and visa bans and last week four individuals 
and one financial institution were targeted for providing 
material support to Russian officials. We can and should ramp 
this up. This is Putin's power base. Expropriation, corrupt 
government contracts, bribery, it is all rampant and it is all 
despised by the Russian people. And this provision lets them 
know whose side we are on.
    The amendment also calls for close scrutiny of Russia's 
efforts to arm Bashar al-Assad in Syria and I appreciate Ms. 
Ros-Lehtinen's and Mr. Cotton's close attention to that issue. 
Moscow's support has been essential in Assad's 3-year slaughter 
of his own people.
    The amendment also calls for a determination as to whether 
or not Russia is in material breach of the INF Treaty. There is 
recent credible reporting that Russia has violated this treaty. 
The administration owes Congress, I think, a determination in 
this regard. And on security assistance, the amendment answers 
increasingly bipartisan calls to do more to help improve the 
capability of Ukraine's armed forces, which have been neglected 
for decades.
    And lastly, the amendment includes several technical 
changes to perfect the language in the underlying bill. So do 
any other members seek recognition to speak on the manager's 
amendment? I will go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. I want to speak in 
strong support of the manager's amendment. I want to tell our 
colleagues specifically what the amendment does. It amends the 
base text as follows. It adds language on Ukraine and human 
rights. It has language on community and faith-based 
organizations in Ukrainian civil society. It adds language to 
help improve the capabilities of Ukraine's armed forces. It 
adds language allowing the President to sanction those who are 
complicit in significant corruption in Russia. It also adds 
language requiring closer scrutiny of Russia's efforts to arm 
the Bashar al-Assad regime in Syria. It requires the President 
to report on whether Russia has materially breached its 
obligations under the INF Treaty. It includes a number of 
technical and perfecting changes to the language in the 
underlying bill.
    So Mr. Chairman, I think that these amendments strengthen 
the bill and are right in line with what we are attempting to. 
I strongly support them and I yield back.
    Chairman Royce. Mr. Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I rise 
in respect to my colleagues, but in strong disagreement with 
this manager's amendment as well. There is no doubt there is 
significant corruption in Russia. There is no doubt about that. 
And there is no doubt there is significant corruption in a huge 
chunk of this planet and the governments that control the 
people on those chunks of the planet. We know that, for 
example, Mr. Yanukovych who was elected as President of Ukraine 
who was then removed, I might add, from being the President of 
Ukraine, that he was elected because the people that we have 
supported, and I say we because I was deeply involved in 
supporting this Orange Resolution they had. They had conducted 
themselves in a very corrupt way and the people of Ukraine were 
upset with the pro-Western group that had been put in place and 
they elected this pro-Russian Yanukovych and they elected him 
to be their President. All right.
    Right now, simply to condemn the corrupt leaders of Russia 
in a world like this is a hostile act toward Russia. It is a 
hostile act toward those particular people that run Russia. I 
am not saying we shouldn't recognize them, they do not meet 
anywhere near the honesty standards that we have, but for us to 
single them out right now as compared to what is going on in 
China, as compared to what is going on in so many other 
countries in the world is telling them we consider them our 
enemy. And this is what we are talking about today is an effort 
to rush headlong into the Cold War again by declaring war on 
these people. That is what we are doing.
    We are declaring war on them as individuals, singling them 
out from all the corrupt dictators around the world. Let me 
note with Assad, yes, I think Assad is a corrupt dictator and 
he has had a rotten regime in Syria and Putin has supported 
him. But of course, our guys support al-Qaeda, the people who 
murdered 3,000 Americans on 9/11. Our allies are supporting 
those guys. So no, we are going to condemn Russia for 
supporting Assad because he is a corrupt dictator.
    What did Russia just do? They just gave $2 billion in 
support for General Sisi. Well, thank God they did that, but 
they are not going to be doing that in the future if we start 
singling them out in such a hostile way that they know that we 
are at war with them as individuals and war with Russia again. 
That is not what is best for our country. And it is not what is 
best for the world.
    And as far as one last note, from what I understand what 
happened in Crimea, not one person was killed, maybe one, maybe 
there was one. What happened in Kosovo when we were supporting 
self-determination which we should have supported, and in 
Sudan, we are talking about thousands of people who lost their 
lives, yet we have to go and condemn the Russians of course 
when no one lost their life in an attempt to make sure that 
people of Crimea had a right to control their own destiny and 
their own self-determination. So I would oppose this manager's 
amendment as well as the bill.
    Chairman Royce. I am going to recognize myself for a few 
minutes here. First, I want to make it clear that this bill 
includes measures to address and sanction corrupt Ukrainian 
officials as well. Asset seizures, sanctions, visa bans, all 
apply in this legislation to those Ukrainian officials involved 
in that kind of conduct, but it also applies to the Russian 
oligarchs that have been involved in this situation.
    Why? Well, for one reason we should look at every bit of 
leverage we have in this situation in order to put pressure on 
Russia to make certain that Moscow does not move into southern 
Ukraine or eastern Ukraine or in other territories. And second, 
corruption is the most despised activity in Russia today. It is 
one of the reasons Russians view the actions of the state as so 
irresponsible. So it is not as though in targeting corruption 
related to these activities we are doing something that runs 
cross current with the interests of the people in Russia.
    The authority in the legislation, if you look at it, is 
very permissive. In other words, we are saying that the 
administration has the ability to do this. Why would we want to 
give the administration this authority? Because again, we are 
sending the message that Moscow needs to ramp this down, that 
we need to have a resolution of this crisis. And the only way 
we are going to get there is if we have significant leverage 
here. So there is a lot of flexibility involved in the language 
that we have in the document.
    Frankly, and lastly, this group is Putin's power base. We 
have seen the way that things have been nationalized in Russia 
and power transfer to oligarchs that are very close to the head 
of state. And if we are going to succeed in this endeavor, 
those who have been engaged in ill-gotten gains need to be 
penalized, need to feel that there is a consequence for that 
type of activity. So for those reasons I think this is 
important.
    Mr. Cicilline was seeking to be recognized.
    Mr. Cicilline. Thank you, Mr. Chairman. And I want to thank 
you and Ranking Member Engel for holding today's markup on 
these three important issues, particularly with respect to the 
situation in Ukraine.
    Even as we address the crisis in Ukraine, I appreciate that 
we are also reaffirming our commitment to human rights in Burma 
and our strong economic relationship with Taiwan. But I want to 
thank you, Mr. Chairman, and our Ranking Member Engel for 
leading this committee again in a bipartisan manner as you 
respond to the situation in Ukraine and leading the Congress in 
a thoughtful, unified response to this crisis.
    Following the recent unilateral annexation of Crimea by 
Russia, the legislation before this committee condemns the 
aggressive actions by Russia and supports Ukraine's sovereignty 
and territorial borders. It is also critical the United States 
make clear that our Government will stand in solidarity with 
our NATO allies. This bill will be integral in demonstrating 
our support of the Ukrainian people and our commitment to 
Ukrainian territorial integrity.
    I would like to thank you, Chairman Royce, for your 
inclusion of Section 205 of the Ukraine Support Act which calls 
on President Obama to expand the list of Russian officials 
sanctioned under the Magnitsky Act.
    I was also pleased that President Obama and other world 
leaders have decided to suspend Russia's membership in the G8. 
This action illustrates Russia's loss of international stature 
due to its violation of international law and undermining of 
the democratic process in Ukraine.
    Finally, I offer my thanks to you, Mr. Chairman, for 
working with me to include my amendments language in the 
manager's amendment. I believe it is critically important to 
reaffirm that the United States policy is to encourage Ukraine 
to protect the fundamental human rights of all individuals. The 
underlying bill encourages Ukraine to respect the rights of 
ethnic, religious, and linguistic minorities which is 
important. But this amendment will make clear that the United 
States will continue to protect and defend the rights of all 
Ukrainians as they pursue freedom, democracy, and equality 
under the law.
    I thank you again, Mr. Chairman, and I yield back.
    Chairman Royce. Will the gentleman yield?
    Mr. Cicilline. Yes.
    Chairman Royce. I want to thank the gentleman from Rhode 
Island for yielding and for his contribution to this base text 
because I think he made a very good point. I think when we were 
writing the language in terms of respecting the rights of 
ethnic and linguistic minorities in Ukraine, his point that we 
should expand that and touch on the importance of promoting and 
protecting human rights across the board is particularly 
important given the troubling reports of attacks against 
peaceful protesters and intimidation of journalists and 
activists in Ukraine. Protecting the fundamental human rights 
of all individuals are going to be essential to a successful 
democracy in Ukraine. I therefore thank the gentleman again for 
his contribution.
    Mr. Kinzinger. Thank you, Mr. Chairman. You have a 
situation right now where you have an armed force, whether 
shots are fired or not. You have an armed force walking into a 
sovereign nation and tearing a sovereign European country 
apart. I don't know in any way why anybody on this committee 
would defend that, would call that some kind of self-
determination, would call that anything but an aggression and a 
rebuilding of the Soviet Union.
    I think it is completely legitimate to go after corrupt 
officials in Russia. My friend from California is very quick to 
go after corrupt officials in Afghanistan every time the issue 
of Afghanistan comes up and in fact, becomes the impetus for 
the argument about why we should pull out of Afghanistan.
    I also would like to remind folks that have talked about 
the issues all around the globe. I agree, China is a major 
threat to the United States and probably one of our chief 
competitors in the world with the exception, of course, of al-
Qaeda and global terrorism. But I would remind everybody that 
China has yet to invade a neighbor in the way that Russia is 
invading, has invaded Georgia, is invading Ukraine, is ready to 
rebuild the Soviet Union. And the second we see China do that I 
think we ought to also respond very strongly. A lack of strong 
response here will mean that China is more likely to do just 
that exact thing.
    And then I wanted to address the issue of Assad because I 
think this is a big issue. Assad has murdered almost 200,000 of 
his own people. He did it initially with chemical weapons that 
choke children to death and people to death as they basically 
die, as they realize they are dying from their own lack of 
breath and are unable to survive. So now instead of using 
chemical weapons, he has decided to use barrel bombs which you 
load with 55-gallon drums filled with explosives and igniters, 
drop them on an area that you want to empty. It doesn't matter 
if there are children there; women, men, it really doesn't 
matter because you just drop this barrel bomb and kill whoever 
is in the way.
    There is no defending Assad in Syria. The opposition, some 
of them have links to al-Qaeda, but that is partially because 
Assad is attacking Free Syrian Army and allowing al-Qaeda-
linked opposition to grow so that he can do the narrative that 
he is some savior of Christian religion in Syria. So I think 
all of the Russian influence we are seeing in Syria, the 
rebuilding of the Soviet Union that we are seeing going on 
right now, I think it is essential and I thank you, Mr. 
Chairman, for your leadership. It is essential that we react 
very strongly to this because the lack of doing this will not 
only mean that Russia is going to continue to push the lines, 
it is going to continue to claim ethnic minorities everywhere 
that surrounds it. The Baltics are next, right? Moldova is 
next. They can claim that they are a Russian interest anywhere. 
But it is not acceptable and if we see what is going to happen, 
China can take the same impetus if we stand by.
    Mr. Chairman, I yield back and I thank you.
    Chairman Royce. Thank you. We go now to Mr. Smith, who 
worked to include good language on community-based and faith-
based organizations in this Ukrainian civil society thrust in 
the bill.
    Mr. Smith. Thank you for including it, Mr. Chairman. And I 
just want to make a very brief point again, to my good friend, 
Mr. Rohrabacher. You contrast this legislation and this effort 
with Iran Sanctions Act championed by Ileana Ros-Lehtinen and 
many others, but she was the leader, which targets the entire 
populace of Iran. This is targeted, it is modest. It is 
proportionate. It holds harmless the Russian people, while 
picking out those who have committed egregious acts of 
corruption and violence and my friend from California is right. 
Yanukovych won a free and fair election in 2010. He won it 
against Yulia Tymoshenko. I have actually chaired hearings and 
heard from her daughter because she was then unjustly 
imprisoned after the fact by Yanukovych. Yanukovych was 
unfortunately in a race to the bottom corruption-wise as well 
as repression.
    During the Maidan demonstrations, he actually sent out his 
bully boys and people were wounded on Independence Square. They 
would follow people who were wounded to the hospital and then 
they would disappear, presumably tortured, killed, and never 
heard from again. That is where the faith-based organizations, 
Mr. Chairman, in one of their many acts of bravery stepped in 
and actually opened up the monasteries and the churches as a 
place of refuge, brought in nurses and doctors and denied 
access to Yanukovych's bully boys and said, ``You are not 
coming in.'' So they were right there throughout all of this, 
but again, this legislation is all about targeting.
    And I would remind my colleagues, I wrote the Belarus 
Democracy Act in 2004, 10 years ago. It targeted Lukashenka who 
until recently was known as the last dictator of Europe. He has 
a despicable regime. I have met with him in Minsk. This man 
tortures. His bully boys, like Yanukovych's, are known for 
their use and employment of torture against the civil society 
and especially against those who are in the opposition.
    We tried to do this with China, I say to my friend and 
colleague. I offered legislation that is law today that has 
been absolutely unimplemented, first by the Bush administration 
and now by the Obama administration, that targets people who 
commit repressive acts in the People's Republic of China. So 
this idea of targeting individuals is not new. It is certainly 
with precedent. It holds harmless the general population of 
these countries and says we are going after the offenders, 
those who have committed acts of human rights abuse and 
violence and the like. So I think this is an excellent bill. It 
is a modest bill and again, it is proportionate. It goes after 
those who are committing----
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Mr. Smith. I would be happy to yield.
    Mr. Rohrabacher. You just mentioned the targeting of--your 
legislation, the targeting of individuals in China who are 
engaged in corrupt practices. Am I not a co-sponsor of that 
bill?
    Mr. Smith. Yes, you are. One is already law. Passed in the 
year 2000.
    Mr. Rohrabacher. And let me just note that what we are 
discussing here is the fact that we are not enforcing that law, 
but yet we now want to enforce a law like this on people who 
are equally corrupt and let me just note I would in no way try 
to defend these people who run Russia as being anything but 
corrupt officials, but the fact is that they will be the ones 
who we will enforce this notion on and thus, if you are the 
only one in the world who ends up having such a standard 
enforced, is there some reason for them not to think that we 
are going to war with them?
    Mr. Smith. I say to my friends, enforcement even of the 
Magnitsky Act has been shoddy and spotty as the gentlelady from 
Florida pointed out and there is language in this bill that 
calls for an expansion of that list. There are people who have 
committed horrific deeds that are not on the list. We are 
calling on the administration to do a better job with that 
which is already law as it relates to Russia, as it relates to 
China, although that is not the context of this debate. And to 
say with regards to Ukraine and as the chairman pointed out so 
well, this not only applies to the Russians who have committed 
misdeeds, but also to the Ukrainians. I thank my friend.
    Mr. Rohrabacher [presiding]. Mr. Vargas from California 
seeks recognition.
    Mr. Vargas. Thank you very much, Mr. Chair. I appreciate 
it. I wasn't going to speak. I think it is important that we 
have a robust discussion and I think the discussion here today 
has been fascinating.
    The only thing that I would want to add is this, that it is 
dangerous when we canonize a strong man and I think some of the 
language that I heard today about Putin filling the churches in 
Russia and somehow unifying people around the Russian area is 
dangerous. We have seen this in the past where a strong man 
comes to power. He is held up by his own people and then begins 
to almost become an other worldly figure around the world. This 
is very dangerous. And I hope we don't lose sight of that.
    Again, some of the language I heard today canonizing Putin 
in that way I think is dangerous. I just wanted to mention I do 
support the measures before us. Thank you.
    Mr. Grayson. Thank you, Mr. Chairman. This bill, in terms 
of what it does, not what it says, but what it does essentially 
seems to accomplish two things. One is that it increases aid to 
the Ukraine. The second is that it imposes sanctions on some 
class of individuals who are powerful individuals in Russia. 
And the manager's amendment specifically goes to some 
substantial lengths to strengthen the part of the bill that 
imposes sanctions on individuals in Russia.
    I'd like to hear from the proponents of this bill and this 
manager's amendment exactly what they think will be different 
in the real world as a result of the passage of this bill.
    I don't want to sound flip, but I will tell you that we 
weren't expecting Putin to visit Disney World any time in the 
near future, so the fact that this bill prevents him or some of 
his colleagues from doing so doesn't seem to me to be 
reflective of anything that would actually affect their 
motivations, much less affect their actions. And that concerns 
me.
    I understand that as a Congress, there's only so much that 
we can do to affect a situation so far from our shores. In 
fact, I think that that's true in general that there's a very 
narrow limit to what we can accomplish when dealing with 
foreign policy as a whole. But I do want to hear what it is 
that this bill, the passage of this bill and this manager's 
amendment will do that will be different, that will actually 
make a difference and affect the motivations of people who are 
in charge in Russia.
    Chairman Royce. I thank the gentleman. Will you yield?
    Mr. Grayson. Yes.
    Chairman Royce. I appreciate that, Mr. Grayson. The people 
wielding power in Russia are not just the officials in that 
country. The people who have enormous power there are people 
who have stolen enormous amounts of money. They have basically 
taken resources because of their political pull, because of 
their closeness with President Putin, but they have transferred 
a lot of that wealth offshore. They are susceptible because 
they do like to travel abroad, and they do like to move their 
money out of the country. They are susceptible to pressure if 
we apply smart sanctions. They are friends, they are 
accomplices of President Putin, and so they do have enormous 
influence at the end of the day on Russia's foreign policy. And 
the combination of Putin's concentration of power not just for 
his own advantage, but for the advantage of these individuals 
who have this wealth at risk, the combination of repression 
against the people, and against the political rights of all 
Russians, and the theft, if you think about it, the theft of 
Russia's wealth through corruption have resulted now in an 
authoritarian system that is pursuing an aggressive foreign 
policy, one that has started in the Ukraine but may not end 
there on the basis of President Putin's last speech to the 
Duma.
    So, we have an ability here to send a message cross current 
with that approach, or a message that instead says to the 
Russian people we stand with you against those who have 
received ill-gotten gains. In particular, these individuals 
have benefitted as we know from the dissolution of Rule of Law 
in Russia. So, as we're looking for leverage, this is a way to 
put enormous pressure on Moscow. That would be the calculus in 
terms of the smart sanctions that we have, in my view, in the 
bill.
    Mr. Grayson. All right. I'll reclaim my time.
    So, just to pursue this further, what we're talking about 
here is using the fact that the Russian oligarchs have amassed 
a large amount of offshore assets outside of Russia which we 
will use to pressure against them to get them to them to 
pressure, presumably Putin, to change Russian foreign policy 
and make it more, shall we say, discreet.
    So, for instance, one could picture the United States and 
the European Union working together to actually seize, through 
sanctions, the assets of Russian oligarchs that are held 
outside of Russia including, for instance, ownership of the 
Brooklyn Nets. One could picture, for instance, nationalizing 
the Nets. I'm not sure that would be worth very much, but one 
could do that.
    So is it, in fact, anticipated that this bill would be used 
for the purpose of actually seizing assets of Russian oligarchs 
that are held offshore in the United States or in Europe, or 
elsewhere?
    Chairman Royce. Our President will be meeting with heads of 
state in Europe to discuss next steps, but this would give the 
President the ability to freeze those assets. And I would argue 
that the specter of those assets being freezed will focus the 
mind of those close to President Putin. This is not as 
confrontational as other approaches that might be suggested, 
but it is one that I think is effective because the amount of 
wealth we're talking about, the amount of ill-gotten gains, and 
the amount of influence that these people have is truly 
disproportionate.
    Russia is no longer a society in which the direct influence 
of the people are as influential as those who have replaced 
them with political pull, by being close to the head of state. 
So, their input, I think, at the end of the day is going to be 
important.
    I've raised other leverage that we have in the legislation, 
as well, but for this issue that's the calculation.
    Mr. Grayson. Thanks for the explanation, Mr. Chairman.
    Chairman Royce. Thank you. We go now to Mr. Connolly.
    Mr. Connolly. Mr. Chairman, I was simply going to observe, 
I find it interesting that our friend from Florida has made a 
passionate case for the justification of the power grab in the 
Crimea because of Russian heritage, and the will of Russian 
majority at the expense of a very substantial Tatar minority. 
And, of course, we ignore in the process of that 
rationalization the fact that Russian thugs were bussed into 
Crimea deliberately to influence the outcome, deliberately to 
intimidate those who might have a different point of view.
    Mr. Grayson. Will the gentleman----
    Mr. Connolly. But my only point is, I find it odd having 
given that passionate statement we're suddenly now concerned 
about the efficacy of the sanctions legislation in front of us.
    Which is it? Do you favor the power grab in Crimea, or do 
you, in fact, simply want to make sanctions even more 
effective? I yield back.
    Mr. Grayson. Will the gentleman yield to me?
    Mr. Connolly. I certainly will.
    Mr. Grayson. Okay, it's both. I yield back.
    Chairman Royce. All right. We recognize Mr. Yoho of 
Florida.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate it. And 
I understand the intent of what we're trying to do here. And I 
do support the intent of supporting the people of the Ukraine; 
however, I think the process that we're going through is a 
little bit misguided. And what we're talking about is, you 
know, Russia stepping up and showing their power.
    I've got in front of me kind of the history of the Crimean 
peninsula, and it says that Crimea is an autonomous 
parliamentarian republic within Ukraine subject to the 
Constitution of Ukraine, in accordance with the laws of 
Ukraine, but they also have their own constitution, and they 
stand as kind of an independent state, from what I read here. 
And 58 percent of the population of Crimea is ethnic Russia.
    Again, I support the intent of what we're trying to 
accomplish, but I think what we're seeing in Russia is Mr. 
Putin stepping up. He's emboldened. You're seeing Venezuela 
emboldened. You're seeing China emboldened along with Iran and 
Syria. And I think the reason we're seeing that is we're trying 
to project strength, but they see us as weakened.
    And I know I don't need to remind everybody that we're 
$17.4 trillion in debt. The Government was shut down in 
September and October because of the lack of funds, and yet we 
want to give more money to a country, and we have to borrow 
that money; yet, we have people in our own country that can't 
get health insurance, or they can't send their kids to school. 
And for us to project strength, I think it's time we strengthen 
America and rebuild America.
    And that's the only way you can show up in a fight say, or 
in a confrontation, you can't show up when you're hemorrhaging. 
And I think the rest of the world knows we're hemorrhaging. So, 
again, I support what we're trying to accomplish.
    And I need to just for information to pass this out, that 
we gave the Ukraine over $102 million last year and we've 
committed or obligated $3.6 billion since 1990 to help them do 
all the things that we should have been monitoring that has 
brought us to this point. And to go forward and say money is 
the solution without being from a point of strength, I think is 
erroneous. And I just think it sends the wrong message that we 
can solve this problem.
    Chairman Royce. Will the gentleman yield?
    Mr. Yoho. Yes, sir, I will.
    Chairman Royce. Okay. This bill only addresses already 
appropriated Fiscal Year '14 funds, not any new money. What 
we're doing in this legislation for the members' edification 
here is we're prioritizing and moving the funding that was 
appropriated specifically focused on what we can do on 
democracy building in the Ukraine here with respect to taking 
such issues as the Overseas Private Investment Corporation 
which pays for itself, but we're giving it added impetus for 
those businesses that are going to invest there. The OPIC 
insurance policy will stand behind those businesses, and other 
funding to build civil society with respect to the training of 
law enforcement and so forth.
    Mr. Yoho. Will the gentleman yield back?
    Chairman Royce. I will.
    Mr. Yoho. On page 6 of this bill, it says ``Congress finds 
the following, Ukrainian economy is weak and vulnerable.'' And 
then it goes on to say, ``A financing gap which the Government 
of Ukraine has estimated will amount to $35 billion over the 
next 2 years.''
    That's deficit spending, and a large underground economy 
has developed. This economic condition undermines, and I want 
to emphasize this, this economic condition undermines 
democratic prospects in the Ukraine.
    Again, we're at a $500 billion deficit, and it's soon to 
return to $1 trillion because of our economy. And it goes on to 
say, ``Years of poor economic management and performance have 
undermined and may continue to undermine political stability 
and unity within Ukraine.''
    Chairman Royce. If the gentleman would yield, I just need 
to----
    Mr. Yoho. We're supposed to be talking about the United 
States on the way this is--poor economic management and 
performance. So, yes, sir, I'll yield.
    Chairman Royce. I think when the gentleman reads that 
statement it sounds as though this measure would appropriate 
$35 billion. That is not--it referenced the fiscal problem----
    Mr. Yoho. Right. I understand.
    Chairman Royce [continuing]. That exists in the Ukraine. 
But the lion's share of that is being shouldered by Europe. I 
think if you totaled, and I'm doing this by memory, but if you 
totaled up the provisions here in terms of supporting law 
enforcement in the Ukraine, et cetera, it's about $68 million.
    The reference that you're citing is simply the facts on the 
ground in Ukraine, but----
    Mr. Yoho. Oh, I agree with that.
    Chairman Royce [continuing]. Not what we're committing to. 
And I do want that to be understood here. And, again, the $68 
million or so that we do commit here is money that was already 
appropriated for the budget for Foreign Affairs that we are 
reprioritizing for this purpose. So, I think that clarifies a 
little bit----
    Mr. Yoho. If I had my druthers, I'd rather pay off our debt 
with that money at this point in time.
    Mr. Grayson. Will the gentleman yield?
    Mr. Yoho. I'm out of time. It's up to the chairman.
    Mr. Grayson. I ask for unanimous consent, Mr. Chairman.
    Chairman Royce. Yes, absolutely, Mr. Grayson.
    Mr. Grayson. Thank you very much.
    My reading of the bill, Congressman Yoho, is that we're 
actually taking money from the Pakistani aid budget and putting 
it into the Ukraine aid budget instead, so rather than stealing 
from Peter to pay Paul, we're actually stealing from Paracha to 
pay Pavel. I yield back.
    Chairman Royce. And I believe, if I could--would the 
gentleman yield?
    Mr. Grayson. Yes.
    Chairman Royce. In terms of that portion of the budget, I 
think it's broadcasted in Pakistan that we're taking the funds 
and applying it here, for the record.
    Now, are there any second-degree amendments to the 
manager's amendment? Hearing no second-degree amendments, the 
question occurs on the manager's amendment. All those in favor 
say aye.
    All those opposed, no.
    Mr. Yoho. No.
    Chairman Royce. In the opinion of the Chair, the ayes have 
it, and the manager's amendment is agreed to.
    And I would now to call up en bloc, this is a number of 
amendments from colleagues on both sides of the aisle that were 
sent to your offices last night. They're in your packets this 
morning, so I'm going to ask unanimous consent that the 
following items be considered en bloc. Grayson Amendment 232. 
Keating Amendments 27 and 28. Lowenthal Amendment 23. Messer 
Amendment 120. Without objection, so ordered.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. Do any members seek recognition to speak on 
the en bloc amendments? Hearing no further request for 
recognition, the question occurs on the en bloc amendment.
    All those in favor say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it and the items 
in the en bloc amendment are agreed to.
    Are there any other members----
    Mr. Connolly. Mr. Chairman.
    Chairman Royce. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    I have an amendment at the desk, Amendment 98.
    Chairman Royce. The clerk will report the amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Connolly 
of Virginia. At the end of title I, add the following: Section 
110. Annual report on security developments in the Russian 
Federation and their effects on----
    Chairman Royce. Without objection the amendment will be 
considered read.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. The Chair reserves a point of order and 
recognizes the author to explain the amendment.
    Mr. Connolly. I thank the chair. And I think this amendment 
has been provided both to the chairman and the ranking member 
for their consideration and clearance. This is a complementary 
amendment to a provision in the Senate bill requiring an annual 
report on security developments in the Russian Federation and 
the effects they might have on Ukranian sovereignty.
    The report includes an assessment of the security situation 
in regions neighboring Russia, including the Crimea. The goal 
is, in fact, shaping the security strategy of the Government of 
Russia, including potential annexation of non-Russian 
territory, trends in Russian security behavior that would be 
designed to achieve Russian security goals, and an assessment 
of the global and regional security objectives of Russia that 
would affect NATO, the Middle East, or the People's Republic of 
China.
    An assessment of the capabilities of Russian military and 
those capabilities' effects on potentially Russia's neighbors, 
and any other developments that the Secretary of State 
considers of strategic importance to our national security with 
respect to this subject.
    And with that, Mr. Chairman, I yield back.
    Chairman Royce. I thank the gentleman for yielding. And I 
want to just share with you, Mr. Connolly, I support your 
amendment.
    Given Russia's continued aggression toward Ukraine, which 
may yet extend to other countries in the region, I think this 
report would be very useful in helping to gauge the potential 
impact from the future development of Russia's armed forces, 
and from its foreign policy. And, therefore, I would support 
its inclusion.
    Mr. Connolly. I thank the chair.
    Chairman Royce. Do any other members seek recognition to 
speak on this amendment? Hearing no further requests for 
recognition, the question occurs on the amendment.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it. The 
amendment--Mr. Duncan.
    Mr. Duncan. Mr. Chairman, I have an amendment at the desk.
    Chairman Royce. The clerk will read the amendment.
    Mr. Duncan. Number 46.
    Ms. Marter. Amendment offered by Congressman Jeff Duncan of 
South Carolina to H.R. 4278, the Ukraine Support Act. Section 
2(8) following ``increased natural gas exports and energy 
efficiency,'' insert ``in Ukraine, which could be greatly 
enhanced by the advances in energy extraction and exploration 
technologies.'' Should read: ``to support energy 
diversification initiatives to reduce Russian control of energy 
supplies to Ukraine and other European countries, including 
United States promotion of increased natural gas exports and 
energy efficiency in Ukraine, which could be greatly enhanced 
by the advances in energy''----
    Chairman Royce. Without objection the amendment will be 
considered read, and the Chair reserves a point of order, 
recognizes the author, Mr. Duncan to explain the amendment.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Duncan. Okay. Thank you, Mr. Chairman.
    I applaud the efforts of Chairman Royce and Ranking Member 
Engel in drafting this bipartisan legislation in support of 
Ukraine.
    It really comes down to what side of history do we want to 
be on. When history is written do we want to be folks that--
Members of Congress and Americans that support a sovereign 
nation, a sovereign nation facing aggression that harkens back 
to the Cold War. So, I believe that we should use every tool in 
the toolbox to support like-minded nations like Ukraine.
    I support this legislation, but I believe the U.S. could do 
better to support the efforts and reduce Russian control of 
energy supplies to Ukraine and other European countries by 
increasing cooperation on energy extraction and exploration 
technologies such as hydraulic fracturing.
    This actually is larger than just Ukraine, because Europe 
is looking west to the U.S. We talked earlier about L&G 
exports, to lessen European dependence and Ukranian dependence 
on Russian sources of energy. Today, Ukraine is heavily 
dependent on Russia for its source of energy. In the past, 
about 80 percent of Ukraine's oil and natural gas came from 
Russia. And according to the EU Energy Commissioner in 2012, 
about 60 percent of Russian natural gas headed Europe went 
through the Ukraine, pipelines that go through the Ukraine. 
It's total dependence on Russia, and that concerns our friends 
on the other side of the Atlantic.
    Russia has used its leverage twice, in 2006 and 2009, to 
cut off the gas supply to Ukraine. Again, it's used its 
leverage twice to cut off the gas supply to Ukraine. In today's 
volatile situation, Russia has considerable leverage over 
Ukraine through its energy capabilities.
    According to a recent Forbes article, Ukraine could hold 
more than 40 trillion cubic feet of recoverable shell gas. 
That's a move toward energy independence if they can harvest 
those resources.
    With the incredible growth in U.S. natural gas resources, 
particularly from shell gas, with growth up 72 percent since 
2000, and 49 percent since 2005, I believe that the U.S. and 
Ukraine should consider the benefits of energy extraction and 
exploration technologies; how to increase our cooperation to 
use U.S. expertise in fracking to help meet Ukraine's needs to 
develop this capability.
    We're not forcing this technology on Ukraine, they have 
asked for it. Businesses are willing to get involved, and last 
year Ukraine signed a natural gas exploration deal with both 
Royal Dutch Shell and Chevron. This is something Ukraine wants. 
This is something; technology that we have. Regardless of where 
you come down on the political spectrum with regard to 
hydraulic fracturing, we're talking about Ukraine as a 
sovereign nation wanting to pursue this.
    In that sense, we often say that it does more good to teach 
a man to fish rather than simply give him a fish. Well, I 
believe that it would be more sustainable for Ukraine in the 
long run if we apply this same principle.
    And with that, Mr. Chairman, I think we should support this 
amendment, and I urge our colleagues to support it. And with 
that, I yield back.
    Ms. Ros-Lehtinen. Thank you. Do any other members seek 
recognition to speak on the amendment? I'm looking for baseball 
signals. Mr. Grayson is recognized.
    Mr. Grayson. Thank you, Madam Chair.
    I'd like to ask a few questions of the gentleman from South 
Carolina, specifically regarding the second part of his 
amendment.
    Why does the gentleman think it would be constructive for 
this Congress to tell the Ukrainian Congress what it should be 
passing or not passing?
    Mr. Duncan. Well, what we're doing is trying to give them 
the ability to have access to the hydraulic fracturing 
technology.
    Mr. Grayson. Okay. I'm referring to the second part of the 
gentleman's amendment. Perhaps I'm misreading it, but the 
second part says that, in Section 102(b)(5) you would add the 
following terms, ``reducing corruption.'' And, apparently, 
you're trying to give examples of how to reduce corruption in 
the Ukraine, ``supporting reform efforts of the Government of 
Ukraine to pass legislation,'' et cetera, et cetera. That's 
what I'm referring to. Has the gentleman offered that 
amendment?
    Mr. Duncan. I have that amendment coming up next.
    Mr. Grayson. Oh, that's coming up next.
    Mr. Duncan. Yes, sir.
    Mr. Grayson. Okay.
    Mr. Duncan. That would be Amendment 45. We're on 46.
    Mr. Grayson. All right. Then I'll yield back. Thank you 
very much.
    Mr. Duncan. Yes.
    Chairman Royce. Yes. Did you want to speak to this 
amendment, Mr. Sherman? Yes.
    Mr. Sherman. I rise in cautious opposition to this 
amendment simply because we're going to spend all day tomorrow 
talking about energy, talking about energy exports. Then our 
subcommittee is going to have, and the gentleman is welcome to 
come and participate, I'm sure, in hearings I think a day after 
that on petroleum exports from the United States.
    There's no reason to put in this bill things that divide 
Americans, things that raise hot button issues about 
environment, and energy. We ought to be focused as narrowly as 
possible on the Ukraine.
    Now I will say this, your amendment does only a little bit 
to affect what is already in one sentence of the bill, but as 
for the idea that we need to focus on this now, we could do 
that in a separate bill months from now, weeks from now.
    As to petroleum, no amount of effort in the United States 
is going to have a significant impact on the worldwide price of 
petroleum.
    As to natural gas, they pay in Germany $10 roughly a unit, 
in Japan $16. Unless the gentleman has become a socialist, and 
I'm confident that he has not, he proposes that all of this 
energy development and export is going to be done by private 
companies who are going to sell for $16 rather than for $10. 
So, we may tomorrow have an interesting debate.
    Japan has moth balled all of its nuclear electric 
generation facilities. It is buying a huge amount of natural 
gas, and maybe that natural gas could come from the United 
States, but what does that have to do with the Ukraine?
    Whether we export natural gas, how much we drill is an 
interesting issue. That's why I'll be here tomorrow, and to 
think that if only we developed more natural gas in the United 
States our private companies would choose to sell it to the 
Ukraine for much less than Japan would pay for it seems 
unlikely. The Ukraine buys virtually all of its natural gas 
without it having to be liquified and regasified. Japan being 
an island has to have its natural gas liquified, then it has to 
turn it back into gassy state at great cost, so I don't see a 
reason for this bill to focus on a red button, hot partisan, 
environmentalist versus economic development energy issue, and 
for that reason would oppose the amendment
    Chairman Royce. Will the gentleman----
    Mr. Sherman. Yield to the chairman.
    Chairman Royce. I take the gentleman's point, but if we 
think through another alternative, what if we were to use the 
permitting process on L&G as basically a strategic asset for 
foreign policy, and what if we were to just for the sake of 
argument grant that permit on the condition that the export in 
this particular case go to Eastern Europe or Ukraine, because 
our situation is this right now.
    We are flaring gas because of a glut. We're capping wells. 
It seems to me that--and, again, I'm moved somewhat by the 
arguments that our Chairman of the Joint Chiefs made about 
using this as a strategic asset. I understand your point, that 
if we open this up and it was simply the argument that you were 
to expand to every market in the world, but what if we reached 
some kind of compromise on the idea that the additional 
increase in the export of L&G would be for a national purpose.
    Now, it would have the added benefit of increasing--it 
would actually increase the deficit for Russia if we did that. 
It would decrease our deficit if we did that. It would create 
more jobs in the gas and oil industry here in the United States 
if we did it. But I just raise it----
    Mr. Sherman. I'm reclaiming my non-existent time.
    Chairman Royce. Yes.
    Mr. Sherman. I think that's an interesting issue to discuss 
tomorrow.
    Chairman Royce. Yes.
    Mr. Sherman. It doesn't have to be dealt with in this bill. 
It will raise even some questions on the right as to whether we 
should tell a landowner who wants to drill for natural gas, 
export that natural gas to Japan and get paid $16 per unit for 
it, that we're not going to let that landowner do it. We're not 
going to let that oil company do it. They're going to have to 
sell to Ukraine for $9 a unit, or $10. That's a good discussion 
for tomorrow.
    I haven't hesitated to criticize people in my own party 
over in the other body for not moving as quickly as possible to 
help the Ukraine. So far, not a single piece of legislation has 
been signed by the President on the Ukraine. And Crimea has 
been invaded, seized, and annexed. I would like this bill to go 
forward, and I look forward to tomorrow's hearings, and what 
you're proposing. And I also think that, speaking of seizing 
territory, I think we should seize the jurisdiction of the 
Energy and Commerce Committee so that we're in a position to 
decide not only whether or not that energy is developed and 
under what conditions, but to whom it is sold. And there's one 
kind of naked aggression and power grab that I'm in favor of, 
and that's it.
    Chairman Royce. Will the gentleman yield?
    Mr. Sherman. I yield back to the chairman.
    Chairman Royce. I appreciate the gentleman for yielding.
    It is our responsibility to set broad parameters on foreign 
policy. I do think this is a case where an absolutist position 
is probably not going to prevail. Either the absolutist 
position that all permits be granted, or the position that none 
be granted.
    I do, however, think it is worth contemplating this concept 
originally raised by the Chairman of the Joint Chiefs that 
additional permits granted be in our foreign policy interest, 
and this is something that I think as the weeks unwind here is 
worthy of consideration because it might be a way to bridge the 
divide.
    I think Mr. Meeks was seeking recognition.
    Mr. Meeks. Thank you, Mr. Chairman.
    I just wanted to join in with Mr. Sherman. I heard your 
idea, and it is something that is intriguing to me because I've 
been going back and forth as to what we should do. And I know 
talking to some individuals within my district, and making sure 
that I have foreign policy considerations also, but you've done 
such an excellent job, I think, in making sure that we have a 
bipartisan agreement where we don't have any of those 
agreements, and we can have a separate--and I think that will 
take place tomorrow because I am listening. I think that to 
have an intense debate focused on this issue and this issue 
alone would be beneficial to members. I know it would be 
beneficial to this member to have a real debate on what we 
should do. And maybe if we can show that we're just doing it 
for the Ukraine, and it helps us overall, our national 
interest, et cetera, that could win over some other members. 
But to do it in a bifurcated way, I think it's tremendously 
important moving forward because we've done such an excellent 
job, I think, on this bill in a bipartisan way. So, I would 
agree with Mr. Sherman. Let's debate that tomorrow. And I am 
intrigued by what the chairman has indicated, you know, setting 
as an example of how we could do it, and would love to hear 
more and have further debate in that regard. But I think that 
it should not be included in this bill.
    Mr. Duncan. Would the gentleman yield?
    Chairman Royce. Mr. Duncan, if I could first explain Mr. 
Duncan's amendment very succinctly so that there's a full 
understanding. ``To support energy diversification initiatives 
to reduce Russian control of energy supplies of Ukraine and 
other European countries, including the U.S. promotion of 
increased natural gas exports and energy efficiency in Ukraine, 
which could be greatly enhanced by advances in energy 
extraction and exploration technologies.'' This, specifically, 
is what Mr. Duncan is proposing.
    The one advantage of the language we have in the underlying 
bill is that, frankly, it is so broad it goes to the concept. 
As you correctly identify, and as the gentleman from California 
has stated, the specifics of this will be debated tomorrow.
    All I'm attempting to do here is to advance the argument 
that the focus should be on Ukraine to the extent that we can 
increase energy independence in Ukraine. I don't really believe 
at the end of the day that is that debatable, or divisive an 
issue.
    I think when you get into the specifics in Energy and 
Commerce, that's where the argument is going to occur. And if I 
were on that committee, that's where I'd be advancing the 
arguments that I just made with Mr. Sherman, and one which at 
the end of the day Mr. Sherman, I suspect, might agree with me 
on. But that is not for the debate here and now, I concur, but 
the language we're using here I just don't see it as that 
objectionable because it is so broad based. It goes to the 
intent basically to leverage Russia.
    And with that, I should yield finally to Mr. Duncan.
    Mr. Duncan. Well, Mr. Chairman, you made the points that I 
was going to make, so I really don't need to say anything 
further than Russia wants to control the Ukraine territory. 
They have the ability to control the Ukraine energy sources, 
just the nature of where we are with the natural gas and 
petroleum coming into Ukraine supplied by Russia.
    This would give diversification for the sovereign nation of 
Ukraine to possibly go after its own resources, be energy 
independent, lessen its dependence on Russia, and really 
support its own sovereignty with regard to energy security.
    So, with that, I appreciate the comments of the chairman. I 
yield back.
    Chairman Royce. And I see it, enhancing cooperation with 
our European allies on advances in the technology in the energy 
field, that's going to provide the opportunity to increase 
those supplies. That's going to undermine at the end of the day 
President Putin's ability to leverage his energy supplies for 
increased political influence, so I support the amendment. But 
I think Mr. Cicilline wanted to speak on this issue.
    Mr. Cicilline. Just a question, Mr. Chairman.
    I know this issue was raised when we considered the earlier 
resolution.
    Chairman Royce. Yes.
    Mr. Cicilline. And I don't think anyone is suggesting 
diversification is not a good, sound policy, but that's 
actually not what the amendment does as I read it. It adds 
language that says, important language, ``which would be 
greatly enhanced by the advances in energy extraction and 
exploration technologies.''
    We haven't had any discussion about that. That's actually 
what the amendment says. It adds that language, and I think for 
precisely the reasons my colleagues on the other side on the 
top tier mentioned this is going to invite a much broader 
debate between environmentalists and the industry about 
advancements in energy extraction and exploration technologies. 
And I, frankly, think it raises the danger that in this moment 
when we should be speaking with a very unified voice it's 
bringing into this discussion not energy diversification. I 
think that's already in the underlying manager's amendment, but 
new language about great advancements in energy extraction and 
exploration technologies. And I----
    Mr. Duncan. Would the gentleman yield? It doesn't say what 
that technology is. It's just saying that--it's a statement, 
which would be greatly enhanced. And truly it would, it would 
be greatly enhanced. Their diversification initiatives would be 
greatly enhanced by energy extraction and exploration 
technologies regardless of what those may be.
    If the U.S. has the ability to help the Ukraine become 
energy independent regardless of what those extraction 
techniques or exploration technologies are, they should be--we 
should be open to giving those to the Ukraine should they ask 
for them. I think it's just a statement there at the end.
    Mr. Cicilline. Yes, reclaiming my time. That may well be 
the intention. I'm just suggesting that using this language is 
going to invite, likely to invite the kind of debate that I 
think is--that undermines the importance of doing this in a 
unified bipartisan way. And I----
    Chairman Royce. Would the gentleman yield?
    Mr. Cicilline, the language--I guess I'm looking at this 
very legalistically, but the language says in Ukraine which 
could, fortunately says which could be greatly enhanced by the 
advances in energy extraction and exploration technologies. 
Does that give you any comfort, the--it's basically a statement 
of fact, in other words, in which we say it could be. That's 
the actual amendment, not his explanation of the amendment, but 
the actual----
    Mr. Cicilline. Right. Having the benefit of this discussion 
during this hearing, and it doesn't give me grave concern. What 
I'm saying is that language without a lot of discussion around 
it, I fear is likely to raise the kinds of concerns that will 
cause people not to support this. And I think that would be 
very bad. That's the reason I raise it.
    Chairman Royce. Mr. Kinzinger is seeking time.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    As I dealt with a week ago when we talked about this, I am 
a huge supporter of the idea of exporting our natural gas; 
playing a counter to Russia. I'm a huge supporter of what the 
gentleman from South Carolina is trying to do here. But this 
has been weeks, and we are finally getting a bill out, and I'm 
glad. And I commend the chairman on all his hard work to do it, 
but we saw the Senate getting mired down in a lot of issues, 
and I hope we don't do that here.
    For that reason, and again I am completely supportive of 
the idea. I'm also on the Energy and Commerce Committee so, Mr. 
Sherman, we may have a little battle on the jurisdiction, but 
as a member of Energy and Commerce, we're talking about this. 
We're talking about this on the committee, and I am going to be 
on the side of helping Ukraine become energy independent with 
the help of the United States, but I will oppose this amendment 
because I think at this point we have got to move forward, get 
this thing out of here. And you see by what we're doing on the 
committee and the battle that we're having right now, this is 
going to be repeated on the floor, and while I disagree with my 
colleagues that would vote against it for that reason, there 
will be colleagues that will vote against it for that reason. 
And I think we're miring ourselves down in the situation 
similar to what the Senate had.
    And I think, frankly, as the section reads already, 
``increase natural gas exports and energy efficiency,'' is 
actually pretty sufficient for what we're trying to do for 
this.
    Chairman Royce. Could I ask the gentleman, Mr. Kinzinger, 
if we attempted with Mr. Duncan and Mr. Cicilline to work out 
some kind of diversification language, could you see yourself--
--
    Mr. Kinzinger. Sure.
    Chairman Royce. Well, then let me go to the real question, 
which is to Mr. Duncan.
    Mr. Duncan, if we were to work with Mr. Kinzinger and Mr. 
Cicilline during the next \1/2\ hour while we move forward with 
these amendments to try to get some type of language to the 
issue of diversification of energy for Ukraine, would that be 
permissible?
    Mr. Duncan. I would support that.
    Chairman Royce. Okay, then you'll withdraw the amendment 
pending
    Mr. Duncan. I will withdraw the amendment.
    Chairman Royce [continuing]. To work out language.
    Mr. Duncan. And I would request--I have another amendment 
at the desk, Amendment 45.
    Chairman Royce. The clerk will read the amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Duncan of 
South Carolina.
    Page 8, line 5, insert before the period at the end of the 
following: ``such as by supporting reform efforts of the 
Government of Ukraine to pass legislation related to greater 
accountability for government officials; greater protection of 
private property; and increased transparency of government 
funds.''
    Page 16, line 14, insert, ``(4) the Government of Ukraine 
should make greater efforts to secure the protection of 
classified information and military equipment.''
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Royce. The Chair is going to reserve a point of 
order and recognize the author to explain the amendment.
    Mr. Duncan. Thank you, Mr. Chairman.
    Folks, Ukraine is effectively bankrupt. It needs at least 
$20 billion in aid to stabilize its finances. Now, the Ukraine 
and the EU signed an Association Agreement last week, Ukraine's 
financial situation, cultural polarization, and geographic 
divide alone present enormous challenges.
    Furthermore, Russia's invasion of the Crimea captured the 
Ukraine's Belbek Air Base on March 22nd, and the seizure of a 
Crimean naval base yesterday add immense risk and volatility to 
the region. So, while the U.S. must support those in Ukraine 
seeking greater freedom from Russian pressure, we also have a 
responsibility to the American people who require 
accountability and transparency of U.S. tax dollars.
    I'm concerned that the U.S. Government is not prioritizing 
anti-corruption efforts in the Ukraine strongly enough. In 
fact, on March 14th representatives of Ukrainian public 
organizations and initiatives made some bold public statements 
to Parliament of Ukraine and a visiting bipartisan U.S. 
Congressional delegation where they said it will be impossible 
to implement measures offered to Ukraine by the United States 
without large-scale anti-corruptive strategy.
    The Parliament of Ukraine has yet to pass any law enabling 
new leaders of Ukraine to counteract corruption and change the 
system in the departments starting from now. So far there are 
no guarantees that money received by new Ukrainian authorities 
before the Presidential election for reforming and actual 
reloading of the state will be used transparently and for their 
designed purposes.
    Ukraine must not receive a single cent from foreign 
partners until necessary anti-corruptive legislative will be 
adopted, and leave taxpayers who will repay these debts often 
sufficient instruments of control over budget expenditures. All 
those were quotes from that meeting of last March 14th.
    My amendment is very simple. There are two sections that 
require U.S. policy toward Ukraine must emphasize more strongly 
anti-corruption efforts by the Government of Ukraine, and urge 
the Government of Ukraine to require greater accountability, 
protection of private property, and transparency.
    This amendment also urges the Government of Ukraine to pass 
legislation to counteract corruption and secure the protection 
of classified information and military equipment since there 
has been many problems with the protection of these valuable 
assets.
    Again, this amendment urges the Parliament in Ukraine to do 
these sort of things. To speak I think to the original question 
from the gentleman from Florida earlier, this is not mandating 
that the Ukrainian Parliament do anything. This is urging them 
to pass legislation related to greater accountability for 
government officials.
    I think part of the revolution that we saw in Ukraine 
recently and the running off, so to speak, of the existing 
President was part of that anti-corruption mind set, so I would 
urge my colleagues to get behind this amendment and pass it. 
And with that, I'll yield back.
    Chairman Royce. Thank you, Mr. Duncan. I don't see this as 
being controversial because I think all of us agree that 
Ukraine must confront corruption head on. That's why the bill 
prioritizes a number of anti-corruption initiatives here, 
including in the initial statement of policy, including in the 
subsection dealing with other donors and international 
institutions.
    If you read through the section regarding the recovery of 
assets, and in the section imposing sanctions upon certain 
individuals and entities in the Ukraine that were involved in 
corruption, so adding this additional language with respect to 
the Parliament, et cetera, I think is----
    Mr. Duncan. I reclaim some of my time here. This is just 
really a statement of the sense of this Congress----
    Chairman Royce. Right.
    Mr. Duncan [continuing]. With regard to corruption, with 
regard to private information, classified information, military 
equipment; what should the Ukraine do? We are responsible to 
American taxpayers. We're supposed to be good stewards of that 
money, and to make sure that it's not given to a government 
that's going to continue corruption, that there is a 
democratically elected Parliament that will address that would 
be a good thing. And this is the sense of Congress, so to 
speak. And with that, I'll yield back the balance.
    Chairman Royce. Do any other members seek recognition to 
speak on this amendment? Mr. Grayson.
    Mr. Grayson. Mr. Chairman, I think that the bill as it is 
now actually takes appropriate steps with regard to corruption, 
the issue of corruption in Crimea. I think this amendment does 
not.
    In context what this does is this amends part of the bill 
that describes the policy of the United States to work with 
other countries and international institutions to stabilize the 
Ukrainian economy while promoting critical needed structural 
economic reforms in the Ukraine including, and then it lists a 
number of structural reforms, the last one being reducing 
corruption.
    I think that that actually is apt. I think that's sensible, 
and I think that that correctly describes the policy of the 
United States. I think that this amendment, if I may say this, 
butchers that provision by adding in a whole bunch of non 
sequiturs. What this does is it says that it's the policy of 
the United States to reduce corruption by, among other things, 
providing greater protection of private protection. I don't see 
how that has anything to do with reducing corruption.
    In addition to that, the whole premise of this amendment is 
to do these things by passing legislation in the Ukraine. So, I 
return to my original question. I don't understand why the 
gentleman from South Carolina thinks that the Parliament of the 
Ukraine needs pointers on how to deal with corruption in the 
Ukraine.
    Mr. Duncan. Will the gentleman yield?
    Mr. Grayson. Well, I will yield to you with regard to a 
specific question. Can the gentleman tell us the existing state 
of law in the Ukraine, in other words, bills already passed by 
the Parliament to fight corruption, and what additional 
provisions the gentleman thinks are needed?
    Mr. Duncan. Thank the gentleman. I point directly to the 
statements that I made earlier. On March 14th the 
representatives of Ukrainian public organizations and 
initiatives made some bold public statements to the Parliament 
of Ukraine, and a visiting bipartisan U.S. Congressional 
delegation where they said this. And you weren't in for this 
part of my testimony or opening statement, but ``it will be 
impossible to implement measures offered to Ukraine by the 
United States without a large-scale anti-corruptive strategy.'' 
These aren't my words, these were their words. ``The Parliament 
of Ukraine has yet to pass any law enabling new leaders of 
Ukraine to counteract corruption and change the system in their 
departments starting from now.''So far, there are no guarantees 
that money received by new Ukrainian authorities before 
Presidential election for reforming and actual reloading of the 
state will be used transparently and for their designated 
purposes.''
    And the last one, ``Ukraine must not receive a single cent 
from foreign partners until necessary anti-corruptive 
legislation will be adopted and we taxpayers who will repay 
these debts, Ukrainian taxpayers who will repay these debts 
often sufficient instruments of control over budget 
expenditures.'' Those are all quotes from the Ukrainians.
    Mr. Grayson. I'll reclaim my time. Does the gentleman from 
South Carolina seriously believe that there is no anti-
corruption legislation in existence in the Ukraine, that 
corruption is, in fact, legal in Ukraine at this point?
    Mr. Duncan. I believe corruption is rampant in Ukraine.
    Mr. Grayson. Not rampant. I'm asking do you think it's 
legal or illegal?
    Mr. Duncan. For the Parliament or----
    Mr. Grayson. I'm asking you whether you think the act of 
corruption is legal or illegal presently in the Ukraine?
    Mr. Duncan. Well, I'm not sure whether it's illegal or 
legal in Ukraine.
    Mr. Grayson. Okay. I'm going to go out on a limb and say 
that it's illegal.
    Mr. Duncan. But in most countries it is illegal.
    Chairman Royce. Could the gentleman from Florida yield?
    Mr. Grayson. Yes.
    Chairman Royce. I would just make a point, and this would 
be an example of what was legal and what they're attempting to 
change. If you are well connected to the prior President in the 
Ukraine you could get loans at 3 percent. If you were a farmer 
you were getting loans at 17 percent. The consequences of that 
was that oligarchs close to the previous President were, in 
fact, using this. It was legal, and the EU was straining every 
sinew to try to get the Parliament in Ukraine to move on these 
types of reforms.
    In this case, I think Mr. Duncan has a very real point. If 
we can join with the EU in pressing the Parliament to take 
concerted action, there is no question that there are going to 
be some interests in the Ukraine that are going to resist this, 
mainly those who are oligarchs. But those are the people that 
we're trying to target here in order to bring about the Rule of 
Law.
    So, at the end of the day, I think this amendment is 
helpful for the reason that I've explained. And, in fact, 
certain things which we would consider illegal are, in fact, 
legal under their system because they have not been reformed. 
That's why I think it's in order, but if we could go to the 
vote.
    Mr. Grayson. I'd like to reclaim the remainder of my time.
    Chairman Royce. Yes, absolutely.
    Mr. Grayson. I appreciate the chairman's comments and I 
find them very helpful. I think that these decisions should be 
fact-based, and the chairman has offered facts that actually 
have a direct impact on my view of the situation.
    I remain concerned about the provision in this amendment 
that says that one means of fighting corruption in the Ukraine 
is to pass legislation that promotes the greater protection of 
private property. To me that remains a non sequitur and I am 
concerned about that provision.
    I will yield to the gentleman from South Carolina if he can 
explain why the protection of private property somehow reduces 
corruption the Ukraine.
    Mr. Duncan. I will have to look that particular section up 
real quick in comparison to the bill, but----
    Chairman Royce. I'm going to suggest that time has expired 
for the gentleman. Because of time constraints I am--are there 
any other members that seek time on this? If not, I'm going to 
suggest we go to a vote on the gentleman's amendment.
    Hearing no further request for recognition the question 
occurs on the amendment. All those in favor say aye.
    All those opposed, no.
    Mr. Grayson. No.
    Chairman Royce. In the opinion of the Chair the ayes have 
it. The amendment is agreed to, and we go to Mr. Castro for his 
amendment. Does the member have an amendment to the desk?
    Mr. Castro. Yes, number 23.
    Chairman Royce. The clerk will report the amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Castro of 
Texas. Page 5, strike line 23 through page 6, line 2 and insert 
the following: (2) supporting Ukrainian efforts to foster 
greater unity among people and regions of the country, combat 
anti-Semitism and discrimination, and promote respect for 
religious freedom.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. The Chair reserves a point of order and we 
recognize the author to explain the amendment.
    Mr. Castro. Mr. Chairman, it's a very simple amendment. All 
I'm adding is two words ``and discrimination'' into that 
sentence. That's it.
    Chairman Royce. The Chair is in support of this amendment. 
Do any members seek recognition?
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Royce. Yes, the gentleman from California.
    Mr. Rohrabacher. I strongly support my friend in his 
amendment. Thank you.
    Mr. Castro. Thank you very much.
    Chairman Royce. I thank the gentleman from California. 
Hearing no further requests for recognition the question occurs 
on the amendment.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Mr. Poe. of Texas.
    Mr. Poe. Mr. Chairman, I have an amendment at the desk, 
number 46.
    Chairman Royce. The clerk will report the amendment.
    Ms. Marter. Mr. Poe, I have Amendment 74.
    Mr. Poe. I'll take that one.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Poe of 
Texas. At the end of title I, add the following: Section 110. 
Report on geopolitical impact of energy exports. (a) Report 
required. Not later than 90 days after the date of the 
enactment of this Act, the Department of State's Special Envoy 
and Coordinator for International Energy Affairs shall submit 
to the appropriate congressional committees a detailed, 
quantitative, and substantive report on the potential short, 
medium, and long-term impacts of increased United States 
natural gas and oil exports on Russia's economic and political 
influence over Ukraine and other European countries.
    (b) Definition. In this subsection, the term----
    Chairman Royce. Without objection the Chair is going to 
consider the amendment as read and recognize the author to 
explain the amendment.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Poe. Thank the chairman. We've had much discussion 
about energy and the influence that it has had in the region. 
We disagree on what we should do regarding natural gas 
exporting.
    This simply requires that the State Department use its 
resources to prepare a study and report back to Congress 
whether it's a good idea or not for us to make a decision later 
on whether or not we should export energy to the region. So, 
basically, the amendment is very simple. Let's have some 
information given to us by the State Department.
    Chairman Royce. Would the gentleman yield?
    Mr. Poe. Certainly.
    Chairman Royce. I support this amendment. There were a 
number of amendments that Mr. Poe was considering offering. We 
worked with him on this amendment. This amendment is important, 
I think, to the Congress and to the administration that we have 
a strategic understanding of the potential for increased U.S. 
natural gas and oil exports to reduce Putin's stranglehold over 
Ukraine and Eastern Europe. And I think it speaks to just that 
issue. Mr. Engel.
    Mr. Engel. Yes, thank you, Mr. Chairman.
    I want to commend Mr. Poe. I support his amendment. I think 
it's important. I think this is something that is very relevant 
with the matters of discussion today, and I would urge my 
colleagues to support it.
    Chairman Royce. I yield back to Mr. Poe, unless you want to 
go to vote.
    Mr. Sherman. I commend the gentleman for his amendment and 
the ranking member for her statement.
    Chairman Royce. Thank you. Without objection we'll go now 
to a vote. Hearing no further request for recognition, the 
question occurs on the amendment. Who seeks recognition?
    Mr. Stockman. Right after this, I do.
    Chairman Royce. Oh, okay.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it. The 
amendment is agreed to.
    Recognizing the gentleman from Texas.
    Mr. Stockman. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Royce. The clerk will read the amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Stockman 
of Texas. Page 10, beginning on line 10, strike ``services to 
Russia'' and insert ``that promotes democracy and government 
transparency in Russia.''
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Royce. I'm going to recognize the gentleman to 
explain his amendment.
    Mr. Stockman. This is just an amendment which will help 
facilitate. I think all countries should want this amendment 
for transparency and to promote democracy. And I'm going to 
yield to my friend from California briefly.
    Mr. Rohrabacher. I thank the gentleman for yielding to me, 
and I would just suggest that we've had a very good exchange of 
views here today. And I appreciate the leadership of the chair. 
And while I disagree with the bill, I certainly respect 
everyone's opinion, and respect the leadership of the chair. 
Thank you very much.
    Mr. Stockman. I want to add one other thing in reference to 
one of our colleagues who mentioned that China does not occupy 
territory or has invaded. I just want to point out in 1991 this 
House adopted a resolution that said Tibet is an occupied 
territory. I thought that would be relevant for the record. I 
yield back the balance of my time.
    Chairman Royce. All right. So, the language ``promotes 
democracy and government transparency in Russia when doing 
international broadcasting.''
    Any other members seek recognition? If not, the question 
occurs on the amendment.
    All those in favor say aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it. The 
amendment is agreed to.
    Ms. Gabbard, I believe, is next.
    Ms. Gabbard. Thank you very much, Mr. Chairman. I have an 
amendment on the table.
    Chairman Royce. The clerk will read the amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Ms. Gabbard 
of Hawaii. Page 8, after line 3, insert the following (and 
redesignate subsequent paragraphs accordingly): (5) promoting a 
robust, independent and impartial judiciary, due process, and 
uniform application of laws.
    Page 13, line 5 after ``law enforcement'' insert ``and the 
judicial system.''
    Page 13, after line 12, insert the following and 
redesignate subsequent paragraphs accordingly.
    Chairman Royce. The amendment will be considered read, and 
we recognize the author to explain the amendment.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Gabbard. Thank you very much, Mr. Chairman.
    There's been a lot of conversation today and in previous 
days about anti-corruption efforts, our intent to offer 
assistance in bringing stability back to Ukraine in a variety 
of ways. This amendment highlights our intent to offer 
assistance in a necessary way, I believe, in forming a robust 
independent, impartial judicial system.
    There are a lot of things that we can do to try to assist 
Ukraine in reforming their government, banking, energy in 
sector arenas but without an ability for them to hold people 
accountable, and for the people of Ukraine to feel a sense of 
confidence in their judicial system, and that there is a Rule 
of Law, then I'm afraid that these reforms will not be meeting 
their direct intent. I yield back.
    Chairman Royce. I thank the gentlelady for yielding. And I 
do think that one of the things we often miss is the importance 
of an independent judiciary, sort of this concept of the locust 
effect of what happens when you do not really have enforcement 
of law, because you have a judiciary and law enforcement that 
are ineffectual. So, we support enhancing democratic 
institutions in the Ukraine, and I think this amendment does a 
lot in that direction.
    I think a member here seeks recognition. Mr. Duncan of 
South Carolina, to speak on this amendment?
    Mr. Duncan. Yes. I just wanted to applaud the gentlewoman 
from Hawaii because in countries where even they have the Rule 
of Law, if they don't have the courts that are necessary, or 
the non-corrupt courts necessary to prosecute then you see laws 
being avoided and the continuation of bad practices. I think 
this is spot on, and I applaud you for going down that trail, 
and I support the amendment.
    Chairman Royce. Any other members seeking recognition? If 
not, the question occurs on the amendment.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it. The 
amendment is agreed to.
    We're going to go first to Mr. Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Royce. The clerk will read the amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Salmon of 
Arizona. At the end of title I, add the following: Section 110. 
Sense of Congress on suspension of all activities and meetings 
of the NATO-Russia Council. It is the sense of Congress that 
the United States should work to suspend all activities and 
meetings of the NATO-Russia Council until Russia ends its 
aggression against Ukraine, including by removing forces from, 
and reversing its illegal annexation of, Crimea.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Royce. The gentleman is recognized to explain his 
amendment.
    Mr. Salmon. Thank you, Mr. Chairman.
    It's common sense that if Russia is going to practice these 
renewed aggressions and engage in expansionist activities then 
NATO's previous mission of Russian containment may need to be 
reinvigorated if Russia insists on foregoing its opportunity to 
be in the room.
    We all know the history of NATO. It was created as an 
alliance of allies to counter Warsaw Pact countries led by 
expansionist Russia. But since the collapse of the Warsaw Pact, 
NATO was expanded to include several of the former Warsaw Pact 
countries. And while security remains key in the mission, in 
recent years the focus has shifted to the fight against 
terrorism and against global destabilization.
    In 1997, NATO countries signed the NATO-Russia Founding Act 
which provided the formal basis for bilateral cooperation with 
the goal of easing Moscow's concerns about NATO's expansion 
being a threat. Five years later in 2002, the NATO-Russia 
Council (NRC) was established.
    My amendment is very simple. All it will do is call on NATO 
to suspend all former NRC, NATO-Russia Council, activities 
until Russia stops its aggression against Ukraine, removes its 
troops from Crimea, and reverses its annexation of the 
sovereign territory.
    It is important to note that this does not cease dialogue. 
And, in fact, follows the example of NATO's actions after 
Russia invaded Georgia in 2008. At that time, all formal 
activities were suspended for a period.
    I understand that engagement is still critical, and we have 
to have dialogue. There is an avenue for that continued 
dialogue at the United Nations. But as the President has began 
escalating sanctions and looking for all the tools in the 
toolbox, I think that this would be a good addition. Thank you, 
Mr. Chairman. I yield back.
    Chairman Royce. So, if I understand the gentleman, the 
language is to work for, or work toward suspension. I notice 
the NATO Secretary General Rasmussen raised the possibility of 
suspending the NATO-Russia Council saying, ``It can no longer 
be business as usual with Russia.'' I agree with that. I think 
Russia must understand that aggression will not extend its 
influence but will, instead, lead to economic and political 
isolation. That's the sense of the amendment.
    Do any other members seek recognition? Mr. Grayson.
    Mr. Grayson. Mr. Chairman, I think that this is a mistake. 
What the NATO-Russia Council actually does is, among other 
things, make it less likely that we go to war against Russia. 
And I think that that is still a valid goal regardless of what 
Russia has done in the Crimea. I think most members of this 
committee would agree that we should try to avoid war with 
Russia.
    In addition to that, the NATO-Russia Council serves many 
purposes that are in our direct strategic interest as a 
country. For instance, through the NATO-Russia Council we have 
obtained logistical support for our war in Afghanistan from the 
Russians. Because of the NATO-Russia Council, the Russians have 
provided us with logistical support for that war which, 
apparently, will continue at least through the end of this 
year.
    Secondly, through the NATO-Russia Council we have joined 
with the Russians to fight terrorism. Up to this point, the 
Russians have a very positive and helpful record with regard to 
fighting terrorism. They have been the victim of terrorism just 
as the United States has been the victim of terrorism.
    The way that we accomplish that cooperation is through the 
NATO-Russia Council. Withdrawing from the NATO-Russia Council 
or forbidding Russia to participate in the NATO-Russia Council 
will actually, in a sense, promote terrorism.
    In addition to that, the NATO-Russia Council has served to 
help prevent proliferation of nuclear weapons in other 
countries. Obviously, we need the Russian's cooperation if 
we're going to have any hope of preventing Iran from obtaining 
nuclear weapons. That cooperation comes through the NATO-Russia 
Council. If we disband the NATO-Russia Council we are, in 
effect, making it more likely that Iran will obtain a nuclear 
weapon.
    Therefore, for these reasons and among all the other things 
that the NATO-Russia Council accomplishes that are in our 
direct strategic advantage, I don't think that we should 
withdraw from the NATO-Russia Council. I don't think that we 
should attempt to disband it. I don't think that we should do 
anything to harm the productive accomplishments of that 
Council. I yield my time.
    Mr. Salmon. Mr. Chairman, may I respond?
    Mr. Grayson. I'll yield to the gentleman.
    Mr. Salmon. Thank you very much. There is nothing in the 
language that says that we would disband it. It says it 
suspends it for a time until they pull back from their hostile 
invasion of Crimea. It doesn't say that it would be disbanded, 
or that it would be done away with. It would be suspended.
    The President has talked about a lot of red lines. I'm 
trying to make that line just a little bit redder.
    Mr. Grayson. I'll reclaim my time. At this point, it is 
equally likely that the Russians will withdraw from their so 
called hostile invasion of Crimea, and that the United States 
will withdraw from its so called hostile invasion of Texas in 
the 1840s. It's not going to happen.
    If we pass this amendment and, in fact, we do suspend all 
activities and meetings that take place of the NATO-Russia 
Council we are, in effect, disbanding the Council. That's the 
reality of the situation. The reality of the situation is that 
doing this hurts ourselves, hurts our strategic interests, 
hurts our role in the region and throughout the world. That's a 
bad thing to do.
    Mr. Salmon. Will the gentleman yield?
    Mr. Grayson. Yes, I'll yield.
    Chairman Royce. Let me recognize Mr. Keating first, and 
then we'll go to Mr. Sherman. Oh, the gentleman still has time. 
Yes, absolutely. So you've yielded----
    Mr. Grayson. I'll yield to Mr. Keating, I think. No? Mr. 
Sherman.
    Mr. Keating. Mr. Chairman, no. I have my own amendment 
pending. That's all.
    Mr. Sherman. Mr. Chairman.
    Chairman Royce. The gentleman will be recognized.
    Mr. Sherman. I think we could achieve the purpose of this 
amendment by stopping it at the word ``Council'' and 
eliminating the words ``until Russia ends its aggression 
against the Ukraine.'' Then you would simply say, ``suspend our 
involvement in this Council.'' And I think we need to do that 
for an appropriate amount of time. Obviously, if Russia 
withdraws from Ukraine I'd be the first to want to visit the 
Council, but to say that we are going to suspend our activity 
really forever goes beyond what we ought to do given the 
importance of the Council.
    Chairman Royce. Will the gentleman yield? Yes, Mr. Sherman, 
I had marked up a suggested amendment here just before we went 
to you thinking about doing exactly that, because I think if we 
just go to the issue of the meeting of the Foreign Ministers 
which is the Council and we drop the other reference, I think 
it's much more likely that we're going to have unanimous 
consent of this body behind this resolution.
    And I'm going to suggest that at this time to the gentleman 
from Arizona that you look at taking the sentence, ``It is the 
sense of Congress that the United States should work to suspend 
all activities and meetings of the NATO-Russia Council,'' and 
then that's the end of the amendment.
    Mr. Salmon. Yes, that sounds great.
    Chairman Royce. I ask unanimous consent----
    Mr. Grayson. Will the gentleman--well, I'm not sure whose 
time it is right now, Mr. Chairman, but may I address that?
    Chairman Royce. Reclaiming my time, I recognize the 
gentleman from Florida, Mr. Grayson.
    Mr. Grayson. All right. With all due respect, and I 
appreciate the chairman's efforts to make something good out of 
this effort by the gentleman from Arizona, it sounds to me like 
the amendment that's being offered suspends all activities, 
would suspend all activities and meetings of the NATO-Russia 
Council forever. And, in effect, disband it.
    If the chairman were to offer an amendment that would do so 
for a limited period of time, a limited defined period of time, 
then I think that that, in fact, would be constructive. But to 
go from ``will suspend the activities and meetings of the NATO-
Russia Council until Russia withdraws from Crimea'' to ``will 
suspend the activities and meetings of the NATO-Russia Council 
forever'' does not seem to me to be a step in the right 
direction. In fact, respectfully, maybe a step in the wrong 
direction. I yield back.
    Chairman Royce. Mr. Sherman.
    Mr. Sherman. I would say the word ``suspend'' means you 
suspend for a while. This is a sense of Congress. I would think 
that we would allow the gentleman, give him his unanimous 
consent to change his amendment, and then if people want to 
vote for it----
    Chairman Royce. Would the gentleman yield?
    Mr. Sherman. Yes, I will, to the chair.
    Chairman Royce. The word ``temporarily suspend'' would 
probably satisfy the members of the committee.
    Mr. Grayson. Will the gentleman yield?
    Chairman Royce. Yes.
    Mr. Grayson. I find that it would satisfy me. However, the 
grammar police might be upset because of the split infinitive.
    Chairman Royce. That is true. However, for government work 
I think it's close enough, Mr. Grayson. If it secures the 
support of the members of this committee, and I think this is 
the one way to do it, so I'm going to ask Mr. Salmon for 
unanimous consent that the Salmon amendment be read as follows: 
``It is the sense of Congress that the United States should 
work to temporarily suspend all activities and meetings of the 
NATO-Russia Council.''
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Salmon. I would support that.
    Chairman Royce. All right. Any other members seeking--yes, 
the gentleman from California.
    Mr. Rohrabacher. Let me just note that this is exactly the 
opposite direction that we should be going in, no matter even 
if we change the wording.
    The bottom line is, if we are going to--if we have major 
differences with a country as powerful as Russia, which we have 
to admit has its interest, and we have our interest, and there 
are people, other people in this game, as well, around the 
world who would like to see countries that, what was the Soviet 
Union but now Russia and the United States when they have a 
problem, it would be a good thing for us to talk things out.
    What we have here is an example also of what we're doing 
internationally when you have the G-8 now has removed Russia 
from the G-8, now it's going to be called the G-7.
    Mr. Chairman, this is the type of vehicle that we should be 
promoting. We should be promoting discussion between the top 
leaders of various powerful countries to see if we can overcome 
differences rather than suspending talks at a time when we need 
to be talking to one another.
    Look, Russia helps us in Afghanistan. They have since 9/11 
played a very positive role in helping us supply our troops. We 
need that cooperation. We need cooperation when it comes to--if 
we would have had a higher level of cooperation we probably 
could have averted the bombing at the Boston marathon. We need 
to cooperate where we can, and when we have differences we need 
to talk it out. And to kick Russia out of the G-8 and not to 
have a discussion among these top leaders goes against--is 
exactly the wrong direction to go.
    Mr. Salmon. Would the gentleman yield----
    Mr. Rohrabacher. What it does is give them the idea what we 
want is a hostile situation. We're rushing in to a reigniting 
of the Cold War when we didn't talk to one another. We should 
be, instead, suggesting that we all sit down and see if we can 
work things out at a table rather than simply cutting off all 
discussion with someone.
    Mr. Salmon. Would my good friend from California yield?
    Mr. Rohrabacher. I certainly will.
    Mr. Salmon. Thank you very much.
    I think that right now is the most appropriate time to 
isolate Russia. They have been increasingly with the activities 
in Georgia, now the activities in Crimea, they are emboldened 
by our weakness. And our standing in the world has diminished 
greatly over the last several years, and lots of red lines have 
been drawn. And every time a red line is crossed we draw a new 
red line. And I think that the international community has lost 
incredible respect for the United States and our standing needs 
to be bolstered. And we've got to draw a line that actually 
means something sometime, somehow, somewhere.
    Mr. Rohrabacher. Okay, well let me reclaim my time and let 
me just say that I've heard the word ``Georgia'' over and over 
again. And I will have to say, I sat here in this room and I 
sat and listened to the reports on what had happened in 
Georgia, and we have this invasion, Russian invasion of 
Georgia, never mentioning that the Government of Georgia had 
initiated the military action 2 days before the Russian 
retaliation. And that the Georgians had broken a 14-year truce 
with Russia dealing with Ossetia and Abkhazia which wanted to 
be--again, people who wanted to be independent and have their 
self-determination.
    Now, we can create this fantasy world where that didn't 
exist. The Ossetia and Abkhazia, that the Georgians didn't 
attack and, in fact, Russia had invaded Georgia on its own. And 
we can ignore the fact that the people of Crimea want their 
self-determination, and that Russia is being an aggressor, but 
we need to sit down and talk to them, and talk to each other, 
and be honest about it, rather than trying to be pushed 
headlong into another Cold War.
    And that's what I see happening here. And believe me, I was 
a Cold Warrior, but that's when it was the Soviet Union, and 
that's when communism guided their decision making to try to 
put an atheist dictatorship in charge of the world. That's not 
what Russia is today. It's a very powerful country with its 
interests, but it is not the Soviet Union.
    Let's seek peace with these people and seek cooperation, 
and it will make it a better world. And you do that through 
talking to somebody at a moment of crisis, not cutting them off 
and saying screw you. Pardon me.
    Chairman Royce. I'm going to recognize myself for a moment, 
because I think we should clarify the operations of the 
Council. It's essentially a meeting of foreign ministers. It 
has no practical operation. This is a symbolic action to push 
back. It is not the case that we do not have conversations with 
the Foreign Minister from Russia on almost a daily basis now, 
as do the rest of the European Union. But the point is that we 
need to symbolically send a message that in terms of being part 
of that organization, they are suspended for conduct as we 
continue the dialogue. And the dialogue is certainly going to 
continue on a daily basis with Russia.
    This sends a signal to go back to the Secretary General of 
NATO, General Rasmussen's comment that ``it's not business as 
usual.'' And I think we do have to send that signal.
    Do any other members seek recognition?
    Mr. Grayson. Will the chairman yield? I've already claimed 
5 minutes of time.
    Chairman Royce. Yes.
    Mr. Grayson. But I'm asking for the chairman's time.
    Chairman Royce. Yes, I will yield to the gentleman from 
Florida.
    Mr. Grayson. I understand the chairman's point, but I 
respectfully disagree. You can't have it both ways. Either 
we're talking to them or we're not talking to them, and we're 
not talking to them by shutting off our conversation with them.
    The fact is that the NATO-Russia Council, the very 
institution that we're discussing here, is the means by which 
we have obtained logistical support for our war in Afghanistan 
from the Russians. That's a fact.
    The fact is that this institution is the means by which we 
cooperate with the Russians to fight terrorism, Islamic and 
other terrorism around the world. That's a fact. This is the 
means by which we try to accomplish nonproliferation in the 
Middle East and elsewhere with the cooperation of the Russians. 
That's a fact.
    Now, we have spent years on this committee, years trying to 
make sure that we do what we can to prevent Iran from getting a 
nuclear weapon. Either we can work with the Russians the way we 
have done in the past, or we stop that. If we turn them away, 
if we push them away, if we won't talk to them, if we disband 
institutions like the NATO-Russia Council, the inevitable 
result of that will be that we no longer cooperate with the 
Russians, that there is, in fact a de facto second Cold War. 
And the result of that is that we lose the benefit to us that 
we get from cooperating with the Russians to fight terrorism 
for nonproliferation and otherwise.
    It is simply impossible to give you one example to have any 
effective institution of economic sanctions against Iran 
without the cooperation of the Russians. If the Russians do not 
cooperate with our institution of economic sanctions against 
Iran, the whole regime collapses. And I'm not talking about the 
Iranian regime, I'm talking about the institution of our 
economic sanctions against Iran.
    Without those economic sanctions we have no hope of 
preventing Iran by non-military means of getting a nuclear 
weapon. So, we have a choice. You can't always have it both 
ways. You can't have your cake and eat it, too.
    Either we talk to the Russians when it's in our own 
interest, our interest as a country, with our own strategic 
objectives talk to the Russians and get their cooperation, or 
we don't. And this amendment puts us in the direction of not 
talking to them, not getting the cooperation and, therefore, 
hurting ourselves.
    Chairman Royce. Reclaiming my time. Well, the first point, 
of course, would be that we continue those conversations with 
the Russians. But the second point, the more important point 
that I wanted to make is that I believe the reason the Russians 
cooperate with us on nonproliferation is because they perceive 
that as being in their own self-interest. The reason they 
cooperate with us on gas in Syria is because that is in their 
strategic interest. And that's what nations do.
    And at the end of the day, we have so many forums in order 
to continue that conversation that I am convinced the 
conversation will continue. But at the same time, to 
temporarily suspend in terms of the G-8, or in terms of this 
action with NATO, it is warranted that we send some type of 
signal. And this is, I think, helpful in that regard.
    Any other members seek recognition?
    Without objection, the Salmon amendment is considered as 
read. During my earlier UC request we reference here 
``temporarily suspend'' and stopping after NATO-Russia Council 
into the language.
    The question occurs on the amendment. All those in favor of 
the amendment signify by saying aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    Are there any other amendments at the desk?
    Mr. Keating. Mr. Chairman.
    Chairman Royce. Mr. Keating has an amendment.
    Mr. Keating. Mr. Chairman, with Ukraine so clearly in the 
spotlight, we really don't have to--we really should lose sight 
of the regional pressure from Russia, especially in----
    Chairman Royce. Mr. Keating.
    Mr. Keating. I'm sorry.
    Chairman Royce. The clerk will report Mr. Keating's 
amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Keating 
of Massachusetts. Page 4, after line 7, insert the following 
(and redesignate subsequent paragraphs accordingly): (10) to 
reaffirm the sovereignty, independence, and territorial 
integrity of other countries in the region, including Moldova 
and Georgia, and to condemn any Russian Federation political, 
economic, or military aggression against those countries in the 
region.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Royce. The gentleman is recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    As I mentioned, Ukraine is clearly in the spotlight. We 
really can't lose sight of the regional pressure from Russia, 
especially Moldova and Georgia. And that's the reason Mr. Poe 
and I have put forward a resolution calling on allies to offer 
Georgia a membership action plan at the September NATO Summit. 
And it's also the primary reason why this committee's 
longstanding support for the European Union's Eastern 
Partnership exists.
    Just as we condemn Russia's illegal activities in Ukraine, 
we must also condemn Russia's aggression, threats, and 
political and economic pressure on Georgia and Moldova. In 
Georgia, Russian troops are forcing communities apart by 
building illegal fences along the administrative boundary line. 
In Moldova, Russia has threatened to cut off trade and gas 
supplies if the government moves ahead with an Association 
Agreement with European Union, exactly the same thing they did 
in Ukraine.
    At the moment, Russian propaganda is fanning the flames of 
separate extensions in Transnistria. We must make clear to the 
Russians that their efforts to Balkanize Eastern Europe will 
not stand, and that any further acts of aggression in the 
region will also bring sanctions.
    This amendment does that. It also states clearly and 
unequivocally that the United States will continue to stand not 
just with Ukraine, but with Georgia and Moldova. And with that, 
I yield back, Mr. Chairman.
    Mr. Rohrabacher. I would like to ask the gentleman a 
question. Does--so this suggests that if the people of Abkhazia 
and Ossetia who were put under Georgian--in the same category 
of Georgia by Josef Stalin and he, of course, separated them 
from the other Abkhazia and Ossetia which remain part of 
Russia, that if those people determine, let's say 90 percent of 
them voted to become--they'd rather be part of Ossetia and 
Abkhazia, and not part of Georgia, that your amendment would be 
that we should not support their right of self-determination. 
And that Georgia should have the right to come in with armed 
force and keep them as part of Georgia. Is that right?
    Mr. Keating. Will the gentleman yield for a response?
    Mr. Rohrabacher. Yes.
    Mr. Keating. Clearly, as I stated in my remarks on the 
overall piece of legislation, that there's legal means to do 
this internationally and through existing constitutions. What 
this provides a sense of is when those illegal acts occur, such 
as they did occur in Crimea, and that's simply what this 
states. The distinction I'd make with your remarks is the 
difference between illegal actions and legal actions.
    Mr. Rohrabacher. Right. So, do you believe the Georgian 
breaking of the truce with Russia and going--sending their 
troops into Abkhazia and Ossetia, which provoked--which at that 
time resulted in the retaliation, which we call an invasion of 
Georgia, that you would say that that was illegal or legal on 
part of Georgia sending their troops in and breaking the truce?
    Mr. Keating. Will the gentleman yield back?
    Mr. Rohrabacher. Yes, sure.
    Mr. Keating. Thank you. In fact, the occupation by Russia 
in Abkhazia and South----
    Mr. Rohrabacher. Ossetia and Abkhazia.
    Mr. Keating. Yes. That occupation is, indeed, illegal.
    Mr. Rohrabacher. Well, I was referring to what caused that 
situation to arise was that there was a truce between the--
Abkhazia and Ossetia were trying to win their independence. 
They are friends of Russia, they want to be part of Russia. 
They don't like the Georgians, they're a different religion. 
They're a different group of people. And in order to prevent 
violence from happening there was a cease fire in that area, 
and the Georgians broke that cease fire and sent their troops 
in 2 days before the ``Russian invasion of Georgia.''
    Would you say then that the Georgians were violating law or 
they were in accordance to the law when they sent their troops 
in?
    Mr. Keating. Will the gentleman yield back?
    Mr. Rohrabacher. Yes.
    Mr. Keating. With all due respect, I think the statute of 
limitations on Josef Stalin has already passed. I think that 
this clearly deals with the actions that are happening right 
now, and that have happened in the recent weeks where Russia 
illegal aggression----
    Mr. Rohrabacher. I think it comes down--I'm reclaiming my 
time, and I'd just say that it does come down with an honest 
disagreement of whether or not people have a right of self-
determination. And our Declaration of Independence makes it 
very clear that that's one of the essential elements of what 
our country was supposed to be about, is that people have a 
right through the consent of the government, and a right to 
rebel if their consent is not being adhered to, that we do 
believe in the right of self-determination.
    Right now what we're hearing is that is not the case, not 
just from you, but from--as part of the general debate here. 
Mr. Grayson and I obviously plead that that should play a role 
in America's decision making around the world when people feel 
that they are subjugated and if they want to, again, assert 
their right of independence, or to be part of another country.
    That's, I think, part of the American experience. I'm sorry 
that that doesn't seem to be a principle in which we are making 
our determinations now. And this is not--I don't see this as 
just some matter of obviously Russian aggression, nor do I see 
that it was American aggression upon Serbia when we went and 
bombed Serbia in order to insure that the Kosovars had the 
right to independence from Serbia. So, then again, that's a 
matter of consistency, but if you'd like to retort to that, 
please feel free.
    Mr. Keating. Would the gentleman yield?
    Mr. Rohrabacher. Yes.
    Mr. Keating. Thank the gentleman. I'll try and stay within 
the 38 seconds we have left and simply state that Russia has 
committed to withdraw its troops from Georgia, and they have 
not done that. And when it comes to the U.S., the U.S. also has 
a constitution. We're a country where there is a Rule of Law. 
And my amendment as the overall legislation deals with the 
illegal actions of Russia in that region, specifically Ukraine, 
but also the impending actions, and the threatening actions 
with Moldova and Georgia. And that's as clearly as I could 
state it.
    Mr. Rohrabacher. Yes, thank you.
    Mr. Keating. I am out of time. I'll yield my second back.
    Mr. Rohrabacher. Thank you.
    Chairman Royce. Could I go to Mr. Sherman of California.
    Mr. Sherman. I rise in reluctant opposition to the 
amendment, because I think that this resolution, this bill 
should be narrowly tailored to meet the immediate needs of the 
Ukraine. The actions in Georgia are decades old, the actions in 
Moldova decades before that. And, in any case, Georgia is not 
the Ukraine; Moldova is not the Ukraine.
    And I have argued in this room that we should not put 
controversial energy policy into this resolution. And I think 
we have been successful in having only the minimal and the most 
least controversial statements about energy.
    There are those who would say that IMF reform should be in 
this bill, and I--you know, that's an important cause, but it 
adds controversy. The IMF reform would have some applicability 
to the Ukraine, but it's not immediate targeted, focused on 
today's situation in the Ukraine. And as a news flash, a note 
was handed to me that Senator Reid has announced that he may 
remove the controversial IMF provisions from the Senate bill on 
the Ukraine. So, we ought to focus this on the Ukraine. We'll 
have plenty of time in the weeks to come to focus on Moldova 
and Georgia.
    Mr. Keating. Will the gentleman yield?
    Mr. Sherman. I will yield.
    Mr. Keating. Thank the gentleman for yielding.
    If you look at this bill so far, we're dealing with the 
internal politics of Russia, we're dealing with Iran, we're 
dealing with some energy issues. It's not that narrow. In fact, 
the issues that deal directly with Moldova and Georgia that I 
referenced in this amendment is much more narrow, in my 
opinion, than the other issues that are already in this 
resolution.
    Mr. Sherman. Had the individual provisions been subject to 
a separate vote, an amendment process, I might have taken the 
same position. But we're going to have a separate vote on 
whether to offend the principle of focusing on the Ukraine, and 
I would like to keep it as focused as possible, much as I 
commend the gentleman for offering the amendment. And he does 
make a good point.
    As to the issue of transfers of population, and whether the 
government to be established in the Ukraine or any part of it 
should reflect those who live there now, or those who lived 
there before Josef Stalin moved populations, I think that we 
have to institute governments to provide for governing those 
people who live in particular areas now.
    Obviously, the movements of population committed by Hitler 
and Stalin were wrong, and yet we moved an awful lot of Germans 
out of East Prussia, out of Silesia and created a new Poland on 
a substantial portion of German territory.
    The 1940s and prior to that populations were moved 
wrongfully, and whether it is today's Poland, whether it is the 
United States built entirely on conquered on territory of the 
Native Americans, or whether it was the decision of Joshua to 
dispossess the Canaanites and lead to the creation of the State 
of Judea, those movements of population that occurred before or 
in the aftermath of World War II should not--we shouldn't be 
trying to undo that.
    Those in my district I think recognize that California was 
built on territory taken from the Native Americans by the 
Spaniards and the Mexicans, and then taken by the United 
States. We're not intending to leave. So, let's--we can talk 
about how the population in parts of the Ukraine is the result 
of Stalin's work, but those who live in any part of the 
Ukraine, including the Crimea, have a right to live there, and 
a right to vote there even if the presence of their ancestors 
there is a result of a crime of Josef Stalin.
    And, once again, I thank the gentleman from Massachusetts 
for his amendment, and my opposition is modest and reluctant.
    Chairman Royce. Mr. Grayson, the gentleman from Florida.
    Mr. Grayson. Thank you, Mr. Chairman. I am concerned that 
we are over-extending ourselves as a country by trying to 
guarantee the sovereignty, independence, and territorial 
integrity of Moldova and Georgia. I am in support of the 
sovereignty, independence, and territorial integrity of Moldova 
and Georgia, but I don't even believe that we should be giving 
lip service to goals that we simply cannot control or attain 
ourselves.
    I heard some criticism earlier of red lines being crossed. 
Maybe we should be more selective in the lines that we do draw, 
whether they're red or otherwise.
    In 2008, NATO promised that Georgia would one day be 
admitted into NATO. Moldova is already part of a sister 
organization of NATO. The fundamental purpose of NATO is to 
guarantee the sovereignty, independence, and territorial 
integrity of its members. If, in fact, NATO were to extend 
itself to Moldova and to Georgia given the fact that there are 
Russian troops occupying parts of both countries without the 
permission of the formal central government in both countries, 
again, for the purpose the Russians say, and I think this is to 
a large degree valid, of self-determination of those areas, as 
the Congressman from California has already pointed out. In 
fact, what we'd be doing is possibly blundering into war 
against Russia in much the same way that World War I occurred 
through a web of alliances on both sides causing one country 
after another, after another to say yes, fine, I'll join in on 
that war.
    In this case there is a slope. It's a slippery slope, and 
we start down that slope when we do things like reaffirming the 
sovereignty, independence, and territorial integrity of 
countries when we can't guarantee the sovereignty, 
independence, and territorial integrity of those countries 
without going to war.
    And although I understand the impulse to say good things, 
to try to say things that give us all a warm and fuzzy feeling 
that we're on the side of righteous and goodness, in this case 
it's a real danger. So, I would say that the bill is better off 
without this amendment for the reasons that the gentleman from 
California and the other gentleman from California on the other 
side of the aisle have both expressed. I yield back.
    Chairman Royce. We have two other measures to consider and 
votes at about 1:30, so we need to keep moving. I'm going to 
ask the question on the amendment.
    All those in favor say aye.
    All those opposed say no.
    And the amendment is not agreed to.
    Mr. Duncan has an amendment.
    Mr. Duncan. Mr. Chairman, I have an amendment.
    Chairman Royce. The clerk will read the amendment.
    Mr. Duncan. Yes. I have an amendment in the nature of a 
substitute to Amendment 46.
    Ms. Marter. Amendment offered by Mr. Duncan of South 
Carolina to H.R. 4278. In Section 2(8)--Following ``increased 
natural gas exports and energy efficiency,'' insert ``in 
Ukraine, which could be enhanced by advances in new energy 
technologies.''
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Royce. The gentleman is recognized to explain his 
amendment.
    Mr. Duncan. I want to thank the minority for their work on 
this in conjunction with us. I believe the language is 
palatable to both sides, and with that I will just yield back 
and call the question.
    Chairman Royce. I thank the gentleman for yielding, and the 
language here is, following ``increased natural gas exports and 
energy efficiency,'' insert ``in Ukraine, which could be 
enhanced by advances in new energy technologies.''
    And with that explanation, any other member seek time? 
Hearing no further request for recognition, the question occurs 
on the amendment.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it.
    Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Royce. The clerk will read the amendment.
    Ms. Marter. Amendment to H.R. 4278 offered by Mr. Meeks of 
New York. Page 18, after line 2, insert the following: Section 
blank. United States leadership in the International Monetary 
Fund.
    Chairman Royce. The Chair reserves a point of order that we 
consider the amendment as read.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Meeks. Mr. Chairman.
    Chairman Royce. I reserve a point of order and recognize 
the author to explain the amendment.
    Mr. Meeks. Yes, Mr. Chairman.
    Chairman Royce. Mr. Meeks.
    Mr. Meeks. This is an amendment I fully intend on 
withdrawing. Let me state on the onset given the mood and 
everything else that you and Mr. Engel have worked on, I know 
that we don't have jurisdiction, so it's an amendment that I 
will withdraw.
    Chairman Royce. I thank the gentleman.
    Mr. Meeks. What the amendment that I proposed, I guess 
partly being frustrated being on the Financial Services 
Committee, I wish would have jurisdiction, that we would have 
an opportunity to debate this and talk about this issue in the 
Financial Services Committee, of which I once was the chair of 
the International Monetary Policy and Trade Subcommittee that 
dealt with and had jurisdiction over the IMF.
    I believe that Congress as a whole needs to seriously 
consider passing the reforms to the IMF as an essential 
component of a comprehensive assistance package to the Ukraine. 
These reforms would not cost the United States taxpayers 
anything additional, they strengthen the IMF's funding base and 
ability to lead during a financial crisis. And the reforms move 
funds from one account to another, but they do not change our 
overall financial commitment and position to the IMF. If we 
were serious in our intention to support the people of Ukraine, 
now is a critical time to strengthen the power of the IMF, in 
my belief.
    Christine Legarde, the Managing Director of the IMF, noted 
in a Wall Street Journal article yesterday that U.S. policy 
makers from Henry Kissinger to Condoleezza Rice believe that 
the current IMF reforms are necessary for the United States' 
strategic interest in the world, and the United States would be 
steadfast, or should be steadfast in our support for democracy 
and economic growth, for helping the people of Ukraine. 
Reforming IMF quotas is a big step toward that gap.
    The IMF, I believe, is absolutely vital to our national 
security because a strong U.S. economy and a strong U.S. global 
economic leadership is critical to our strength around the 
world and to our national security. The IMF is also central, 
too, to provide economic policy to support to U.S. allies and 
governments whose failure would jeopardize the United States' 
national security interest, and preventing financial crises 
makes for more capable partners in the fight against terrorism 
and the protection of human rights overall.
    And, again, just the--what we would not be giving up. We 
would not be giving up our veto power over the IMF decisions 
which provides us with a great deal of influence. 
Implementation of the 2010 IMF reforms preserves the U.S. veto 
power and our leadership position without increasing our 
overall financial commitment of the IMF. And failure to pass 
IMF reform legislation more than 3 years after we helped design 
the reforms is undermining our international credibility.
    So with that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Royce. I thank the gentleman for yielding. I do 
appreciate you withdrawing the amendment because, as you noted, 
Rule 10 of the House would grant jurisdiction on this to the 
Financial Services Committee over this issue. So, by 
withdrawing we expedite the process of passing out the bill.
    Without objection the gentleman's amendment is withdrawn.
    Hearing no further amendments to this measure the question 
occurs on agreeing to H.R. 4278, as amended.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it and the bill, 
as amended, is agreed to. And without objection 4278, as 
amended, is ordered favorably reported as a single amendment in 
the nature of a substitute. Staff is directed to make any 
technical and conforming changes.
    We now move to consideration of our two bipartisan Asia 
resolutions for today. As your offices were previously 
notified, the ranking member and I propose to consider en bloc 
both resolutions and their respective substitute amendments 
which were sent to your offices last night.
    So, without objection the following items will be 
considered en bloc, H.R. 418 urging the Government of Burma to 
end the persecution of the Muslim Rohingya people. And then 
Amendment 97 in the nature of a substitute to H.R. 418 offered 
by the Chairman on behalf of myself, Mr. Engel, Mr. Chabot, and 
Ms. Gabbard.
    H.R. 494 affirming the importance of the Taiwan Relations 
Act. And Amendment 94 in the nature of a substitute to H.R. 494 
offered by the Chairman. This is on behalf of myself and Mr. 
Engel.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. I now recognize myself to speak on the en 
bloc amendments.
    H.R. 494 affirms the importance of the Taiwan Relations 
Act. For 35 years, the Taiwan Relations Act has served as the 
legal framework governing the important relationship between 
the United States of America and the Republic of China-Taiwan. 
Since the Act came into force in 1979, there have been few 
other pieces of foreign policy legislation as consequential as 
the TRA. Indeed, it is the steadfast support of the United 
States Congress that has helped Taiwan become what it is today, 
a thriving democratic society, and a world leader in high tech 
innovation.
    Today we will consider H.R. 494, affirming the importance 
of the Taiwan Relations Act. This bipartisan legislation which 
currently has over 60 co-sponsors reinforces our nation's 
unwavering support for Taiwan, and for Taiwan's 23 million 
people. As chairman I led two bipartisan delegations to Taiwan 
to strengthen our bilateral relationship. Last year I 
introduced legislation that was signed into law to help Taiwan 
gain a seat at the International Civil Aviation Organization 
for the first time since 1976. Two weeks ago we held the first 
Taiwan hearing in this committee on this issue of the Taiwan 
Relations Act, and today we will pass this important 
legislation to reaffirm our support for Taiwan.
    The amendment in the nature of a substitute makes technical 
and clarifying edits to the underlying legislation. The 
amendment also includes bipartisan language offered by Mr. 
Connolly of Virginia to strengthen the underlying resolution. I 
want to thank the gentleman from Virginia for his suggestion, 
and I will recognize him in a moment to explain the language.
    Taiwan maintains significant bipartisan support in the U.S. 
Congress. I urge my colleagues to support this resolution.
    Let me speak for a moment about H.R. 418 before we go to 
Mr. Connolly and Mr. Engel. This resolution urges the 
Government of Burma to end the persecution of the
    Rohingya people and respect the human rights of all ethnic 
and religious minority groups within Burma.
    The Rohingya Muslim community of Burma are one of the most 
persecuted minority groups in the world. For over three decades 
the Government of Burma has systematically denied the Rohingya 
even the most basic of human rights while subjecting them to 
unspeakable abuses. According to Burma's 1982 Citizenship Law, 
the Rohingya are prohibited from holding Burmese citizenship 
even though they have lived in Burma for generations upon 
generations.
    Since 2012, 140,000 Rohingya and other Muslims have been 
displaced by violence, hundreds have been killed. On January, 
13 unknown assailants entered a village in Rakhine State and 
killed 48 people while they slept. Sadly, this is what happens 
when a government refuses to recognize its own people. In fact, 
a non-governmental organization based in Southeast Asia 
recently disclosed credible documents detailing the full extent 
of state involvement in persecuting Rohingyas. Just a few weeks 
ago the Government of Burma expelled Doctors Without Borders 
from the country, thus denying once again the most basic of 
human rights.
    The Government of Burma cannot claim progress toward 
meeting its reform goals if it does not improve the treatment 
of Rohingya Muslims and other minority groups. The United 
States must prioritize the protection of human rights in its 
engagement with Burma. I urge the State Department to take off 
the rose-colored glasses and recognize that progress in Burma 
is, indeed, very limited in this regard.
    The bipartisan resolution offered by the gentleman from 
Massachusetts, Mr. McGovern, calls on the Government of Burma 
to immediately end the State-sponsored persecution of the 
Rohingya Muslim people. I am a co-sponsor of this resolution. 
We cannot embrace diplomatic reconciliation with the Government 
of Burma while human rights conditions in that country have 
deteriorated.
    I am pleased to offer a bipartisan amendment in the nature 
of a substitute along with my good friend, Ranking Member 
Engel, Chairman Steve Chabot of the Asia Subcommittee, and 
Representative Gabbard of Hawaii who is also a sponsor and a 
member of the Asia Subcommittee.
    This amendment strengthens the underlying resolution by 
clarifying the legal status of the Rohingya Muslim people under 
the 1982 Citizenship Law. It brings the resolution up to date 
by including information regarding the murder of 48 Rohingya 
earlier this year, and the expulsion of Doctors Without 
Borders. The amendment is further amended with language calling 
on the Government of Burma to immediately recognize the 
Rohingya as an ethnic minority, and to grant them citizenship. 
I urge my colleagues to support this resolution. I will now 
turn to the ranking member to speak on the en bloc measures, 
and then we will turn to the gentleman from Virginia.
    Mr. Engel. Thank you, Mr. Chairman.
    I strongly support both measures, the H. Res. 418, a 
resolution introduced, as you mentioned, by Mr. McGovern, the 
co-chairman of the Tom Lantos Human Rights Commission.
    The legislation calls on the Government of Burma to end the 
persecution of the Rohingya people and to respect the rights of 
all minority groups in Burma.
    The plight of the Rohingya gets very little attention, and 
I'm pleased that the committee is addressing the abuses they 
and other minorities have suffered in Burma. And let me quote 
something. According to the State Department's 2013 County 
Reports on Human Rights Practices there were, and I quote, 
``credible reports of extra judicial killings, rape and sexual 
violence, arbitrary detentions, and torture and mistreatment in 
detention, deaths in custody, and systematic denial of due 
process and fair trial rights overwhelmingly perpetrated 
against the Rohingya.'' This is a quote from the State 
Department's 2013 Country Reports on Human Rights Practices.
    As the Government of Burma transitions from decades-long 
military rule to a civilian government, it's important to hold 
them accountable for persistent human rights abuses. The 
killings, arbitrary detentions, and destruction of homes have 
caused 140,000 people to be internally displaced, and hundreds 
of thousands have been forced to flee to neighboring countries, 
including Thailand, Bangladesh, and Malaysia.
    If Burma truly seeks to rejoin the international community 
then it must abide by the human rights principles of equality 
and human dignity. I support this resolution and encourage our 
colleagues to support it, as well.
    And, Mr. Chairman, I commend you for introducing H. Res. 
494, a resolution that affirms the importance and relevance of 
the Taiwan Relations Act. And I'm very pleased to be the lead 
Democratic co-sponsor of that Act.
    Next month marks the 35th anniversary of the adoption of 
the Taiwan Relations Act, which is the cornerstone of the U.S.-
Taiwan relationship. The Act has been instrumental in 
maintaining peace and security across the Taiwan Straits, and 
in East Asia, and serves as the official basis for friendship 
and cooperation between the United States and Taiwan.
    I've been to Taiwan many times. Taiwan is a flourishing, 
multi-party democracy of over 20 million people with a vibrant 
free market economy. Its impressive evolution from 
authoritarianism to one of the strongest democratic systems in 
Asia has transformed the U.S.-Taiwan relationship from one 
based solely on shared interests to one based also on shared 
values. For many years, I've been a strong supporter of the 
people of Taiwan, and I will continue to lead efforts in 
Congress to demonstrate America's support for Taiwan. So, I 
thank you, Mr. Chairman, for holding this markup and I want to 
thank you again for working with us in a bipartisan way to move 
these important resolutions forward. I yield back.
    Chairman Royce. Thank you, Mr. Engel. We recognize Ms. Ros-
Lehtinen for such time as she might consume.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. As one 
of the strongest supporters of Taiwan, I also support and have 
co-sponsored the resolution before us, H. Res. 494, affirming 
the importance of the Taiwan Relations Act.
    With the significant increase in China's defense budget, as 
well as the continued threats posed by an unhindered North 
Korean regime, there is no better time to strengthen relations 
with our democratic ally, Taiwan. It is in our national 
security interest to support Taiwan, and I think the best way 
to illustrate that is to also bring H.R. 419, the Taiwan Policy 
Act, which passed this committee last year to the House floor 
immediately. And we must stand up for all people who are being 
suppressed by authoritarian regimes.
    H. Res. 418 calls for an end to the persecution of Muslim 
minorities and respect internationally recognized human rights 
for all ethnic and religious minority groups. The Muslim 
minority continues to suffer under the current regime. The 
continued prosecution and discrimination, as well as the brutal 
attacks against this minority must stop. And I hope that this 
resolution will help protect the fundamental rights of all 
ethnic and religious minorities.
    Thank you so much for the time, Mr. Chairman.
    Chairman Royce. Thank you, Ms. Ros-Lehtinen. We go now to 
Mr. Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    I want to speak in strong support of H. Res. 494, the 
Taiwan Relations Act. It's incredibly important that we 
continue to emphasize and strengthen our relationship with our 
close friend and key trading partner, Taiwan.
    In 2013, Taiwan was the United States' 12th largest trading 
partner. In my home state of California, according to the 
California Chamber of Commerce, we exported over 6.3 billion in 
products to Taiwan in 2012, incredibly important. California 
has the highest amount of exports to Taiwan within the U.S., 
and Taiwan is the seventh largest importer of California goods 
and services. They're an incredibly important and valued 
partner with us.
    Taiwan also has a deep cultural connection to the United 
States. We have a vibrant and flourishing Taiwanese American 
community with almost half of them living in my home state of 
California. In fact, the majority of Taiwanese Americans also 
have college degrees and are making incredibly important 
contributions to our country. Therefore, I strongly support 
America's commitment to insure that nothing jeopardizes the 
security, or social, or economic system of Taiwan's people.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you. I think Mr. Grayson is seeking 
recognition.
    Mr. Grayson. Thank you, Mr. Chairman.
    I'd like to in support of the Taiwan resolution. Bismark 
said that politics is the art of the possible, and I think that 
foreign affairs should be the same way. It is not possible for 
us to reverse the Russian absorption of Korea, sorry, Crimea, 
the Crimea, nor should we try to defeat the aspirations of the 
Crimeans for self-determination.
    On the other hand, and by the same token, we should support 
and we should continue to support the desire of the Taiwanese 
to be a free and separate state, not being part of--absorbed by 
the larger country, it's neighbor, China.
    There are 20 million-plus Taiwanese who have a separate 
culture, in many cases separate language, and certainly a 
separate history having been occupied by the Japanese for half 
a century. The Taiwanese are fundamentally different and 
recognize themselves as fundamentally different from their 
larger, in fact, 100 times large neighbor. And, therefore, we 
can and should support their desire for self-determination. 
We've done so going back to the 1940s, and I think that we 
should continue to do so.
    It is possible for Taiwan to be free and independent. It is 
possible for us to make that happen, and I think that we should 
continue to do so.
    I yield the balance of my time.
    Chairman Royce. We go now to Mr. Sherman of California.
    Mr. Sherman. Thank you. I'd like to associate myself with 
Mr. Bera's comments complete with statistics about the greatest 
state in the nation, and its relationship with Taiwan. I want 
to support the bill on Taiwan.
    I've had a chance to travel to Taiwan with the chair and 
some other members of this committee where we met with 
President Ma, the leaders of the DPP. This is a vibrant 
democracy that deserves our support.
    I'm not sure I agree with the gentleman from Florida as to 
how separate the culture or language is of Taiwan as compared 
to China, but what it is clearly different is on the mainland 
people live in an authoritarian regime, and in Taiwan they have 
a vibrant democracy that deserves to be respected and helped. 
And I yield back.
    Chairman Royce. Are there any other members seeking 
recognition? Hearing none, the question occurs on agreeing to 
the measures considered en bloc.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the en 
bloc items are agreed to. And without objection, H.R. 418, as 
amended, and H.R. 494, as amended are each ordered favorably 
reported as a single amendment in the nature of a substitute. 
The staff is directed to make any technical and conforming 
changes.
    And that concludes our business for today. I want to thank 
Ranking Member Engel and all of the committee members for their 
contribution and assistance with today's markup, and this 
committee stands adjourned.
    [Whereupon, at 1:36 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]



</pre></body></html>
